<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2016</title>
<body><pre>[Senate Hearing 114-]
[From the U.S. Government Publishing Office]




 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2016

                              ----------                              


                        TUESDAY, MARCH 17, 2015

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:05 p.m., in room SD-138, Dirksen 
Senate Office Building, Hon. Shelley Moore Capito (chairman) 
presiding.
    Present: Senators Capito, Schatz, and Murphy.

                          LIBRARY OF CONGRESS

STATEMENT OF DR. JAMES H. BILLINGTON, LIBRARIAN OF 
            CONGRESS
ACCOMPANIED BY:
        DAVID MAO, DEPUTY LIBRARIAN OF CONGRESS
        ROBERT NEWLEN, CHIEF OF STAFF
        MARY KLUTTS, CHIEF FINANCIAL OFFICER
        MARK SWEENEY, ASSOCIATE LIBRARIAN FOR LIBRARY SERVICES
        ELIZABETH SCHEFFLER, INTERIM CHIEF INFORMATION OFFICER AND 
            ASSOCIATE LIBRARIAN FOR STRATEGIC INITIATIVES
        DR. MARY MAZANEC, DIRECTOR, CONGRESSIONAL RESEARCH SERVICE
        MARIA PALLANTE, REGISTER OF COPYRIGHTS
        LUCY SUDDRETH, DIRECTOR OF SUPPORT OPERATIONS
        KAREN KENINGER, DIRECTOR, NATIONAL LIBRARY SERVICE FOR THE 
            BLIND AND PHYSICALLY HANDICAPPED

           OPENING STATEMENT OF SENATOR SHELLEY MOORE CAPITO

    Senator Capito. Good afternoon. The subcommittee will come 
to order, and I would like to welcome everyone to the third of 
our fiscal year 2016 budget hearings for the Legislative Branch 
Subcommittee of the Committee on Appropriations.
    The ranking member, Senator Schatz, is in the Commerce, 
Justice, and Science (CJS) Appropriations hearing at the 
minute. He's in a holding pattern of 7 minutes before he gets 
to question, and I asked if he didn't mind--he actually 
encouraged me to go ahead and go forward with the testimony.
    So with that in mind, I just would like to welcome 
everybody. Today we will have two panels of witnesses. The 
first panel will be Dr. James Billington, the Librarian of 
Congress, accompanied by the Deputy Librarian, Mr. David Mao, 
and the Chief of Staff of the Library, Mr. Robert Newlen.
    At the completion of Dr. Billington's testimony and the 
subsequent question-and-answer session with the Library, we 
will then turn to the Architect of the Capitol, the Honorable 
Stephen Ayers, for our second panel.
    I would like to begin by welcoming Dr. Billington, who this 
past September marked his 27th year as the Librarian of 
Congress, quite an achievement. That's a wonderful 
accomplishment, and we thank you for your dedication to the 
Library and for your many years of public service.
    I would also like to welcome the newest members of Dr. 
Billington's team, your leadership team, who together with the 
combined 75 years of service to the Library of Congress bring a 
wealth of knowledge to these new leadership positions: Mr. 
David Mao, the Deputy Librarian of Congress; Mr. Robert Newlen, 
the Chief of Staff; and Mary Klutts, the Chief Financial 
Officer. We congratulate you on these new responsibilities and 
wish you all the best in helping to lead the Library through 
the next chapter of its life.
    I understand that there are several other members of the 
senior leadership team here today. I did get a chance to meet 
them all, so I appreciate all of you coming and I want to 
extend to you the subcommittee's appreciation for all the 
tremendous work that you do in supporting the Congress in 
keeping the Nation informed and maintaining the history of our 
Nation, as well as others around the world.
    So again, thank you all for being here with us today for 
this important discussion on how the Library is planning to 
move forward in the coming fiscal year.
    I note that the Library's total fiscal year 2016 budget 
request is $624.5 million, or a $33.5 million or 6 percent 
increase above the fiscal year 2015 enacted level. Given the 
continued budget constraints within which we must operate, it 
will be important to hear from you what the most critical 
priorities are for the Library because we may not be able to 
fund all of the requested increases.
    So now I would like to turn to my ranking member, but he's 
not here, so I'll turn to him in a few minutes.
    I would like to ask Dr. Billington to give a brief opening 
statement of approximately 5 minutes. The written testimony you 
submitted to the subcommittee will be printed in full in the 
hearing record.
    Dr. Billington.

              SUMMARY STATEMENT OF DR. JAMES H. BILLINGTON

    Dr. Billington. Thank you, Madam Chairman and members of 
the subcommittee. Thank you for the honor and pleasure of 
providing testimony in support of the fiscal year 2016 budget 
request of the Library of Congress. We're grateful for the 
support that this subcommittee has given to the Library, and we 
look forward to working with you as public servants, living in 
a time of both continuing budget constraints and an ongoing 
revolution in how knowledge is generated and communicated and 
used.
    You have already mentioned several of the new management 
colleagues appearing for the first time before the 
subcommittee. I would just mention in addition to the three you 
mentioned are Mark Sweeney, Associate Librarian for Library 
Services; Elizabeth Scheffler, Interim Chief Information 
Officer and Associate Librarian for Strategic Initiatives; Dr. 
Mary Mazanec, Director of the Congressional Research Service; 
Maria Pallante, the Register of Copyrights; and Lucy Suddreth, 
Director of Support Operations; and as well another member of 
the Library's management team, Karen Keninger, Director of the 
National Library Service for the Blind and Physically 
Handicapped.
    The Library of Congress fiscal year 2016 budget request is 
for approximately $660 million and represents a 5.7 percent 
increase over the Library's fiscal year 2015 funding level. 
Nearly two-thirds of this requested increase, $21.9 million, is 
needed to cover mandatory pay increases and unavoidable price 
level increases anticipated for fiscal year 2016. The 
remainder, $13.9 million, makes key investments in 
infrastructure of our aging physical plant and information 
technology and addresses gaps in critical areas of expertise 
that we've lost to attrition, a particularly acute need in the 
Congressional Research Service (CRS).
    In recent years, the Library has operated with 
progressively fewer resources. The total Library appropriation 
has decreased by more than $53 million--almost 8 percent--since 
fiscal year 2010. We're doing much more with many fewer 
employees. Since 1992, the Library has added its massive 
digital programs to its still growing traditional analog 
collections and services despite losing 1,429 full-time 
equivalents (FTEs). Our fiscal year 2016 budget request will 
further reduce the number of authorized FTEs across the Library 
by 405, or 11 percent, because we simply cannot support them 
with current funding.
    We are deeply concerned also about moving into fiscal year 
2016 with the prospect of another sequestration, which would 
require making additional cuts to our programs and would 
prevent us from making necessary investments in infrastructure 
and in staff with critically needed skills and expertise.
    The Library continues to serve the Congress and the 
American people in ways that no other institution anywhere can 
match. The Congressional Research Service is the research arm 
of the legislative and oversight work of the Congress, and we 
also serve Congress through the Nation's largest law library. 
As the de facto national library of the United States, the 
Library now acquires, preserves, and makes accessible free of 
charge the largest, most wide-ranging collection of humanity's 
recorded knowledge ever assembled anywhere in the world by any 
one institution.
    The U.S. Copyright Office encourages, protects, and 
preserves the work of America's innovative curators. The 
Copyright and Library Services staff work hand in hand to 
ensure that the copyright of intellectual culture of the 
American people is preserved, continuing to fulfill the 
original mandate of copyright when it was brought into the 
Library in 1870.
    The National Library Service for the Blind and Physically 
Handicapped provides the only free public library reading 
service for these Americans, wherever they live.
    We are taking steps to maximize efficiency, minimize the 
cost of the Library's services, and placing a much greater 
emphasis on shared services both within the Library and across 
the entire Legislative Branch, such as the Legislative Branch 
Financial Management System, which is hosted by the Library. We 
recognize that there is much congressional discussion at the 
moment about the important work of updating copyright law for 
the 21st century, and as the Act is updated, Congress' Library 
needs to be sure that the concept of building, preserving and 
protecting this key part of the national memory for the benefit 
of the American people is not lost.
    There are two unique characteristics of the Library of 
Congress that make it an increasingly valuable resource for 
sustaining American leadership in the information age. First, 
both our security and economic competitiveness globally are 
increasingly dependent on the acquisition and the use of the 
world's knowledge, for which the Library is the entire world's 
preeminent resource. Secondly, America's special capacity for 
creative innovation is sustained and advanced by America's only 
comprehensive storehouse of our citizens' copyrighted 
intellectual and cultural creativity.
    Madam Chairman, the Library of Congress is the world's 
largest reservoir of knowledge. The Library embodies and 
advances the distinctive American ideal of a knowledge-based 
democracy. We will be grateful for your consideration of our 
fiscal year 2016 funding request.
    To the subcommittee, Madam Chairman, all of you, I wish to 
thank you all again for your support of the Library.
    [The statements follow:]
             Prepared Statement of Dr. James H. Billington
    Madame Chairman, Ranking Member Schatz, and members of the 
subcommittee:

    Madame Chairman, thank you for the honor and pleasure of providing 
testimony in support of the mission and fiscal 2016 budget request of 
the Library of Congress.
    The Congress of the United States created in 1800, and has 
generously supported ever since, this amazing one-of-a-kind 
institution. We who work with and for you at the Library of Congress 
are deeply grateful for the annual appropriation you entrust to us. We 
are in continuing awe of the enduring mission you have shaped for us 
through a series of historic mandates. We are, at the same time, public 
servants living in a time of both continuing budget constraints and an 
ongoing revolution in how knowledge is generated, communicated, and 
used.
    I come before you today in the midst of an extraordinary year of 
unprecedented, purely internal, library-wide self-examination from the 
bottom up and top down. This collaborative process is preparing us to 
produce by the end of fiscal 2015 an altogether new strategic plan for 
fiscal years 2016-2020. It will be designed both to maximize efficiency 
and minimize cost. We will build on the Library's already proven 
strengths and make the Nation's oldest Federal cultural institution one 
of its most innovative.
    Congress's library now acquires, preserves, and makes accessible 
free-of-charge the largest and most wide-ranging collection of 
humanity's recorded knowledge ever assembled anywhere in the world by 
any one institution. We also house an unparalleled collection of the 
multi-media cultural and intellectual creativity of the American 
people.
    For fiscal 2016, we are asking for $666.629 million, a 5.7 percent 
increase over our 2015 budget. Because of the unique skills of so many 
of the Library's staff, we have kept to a minimum cuts in our pay 
budget. But irregular funding for mandatory pay raises and price 
increases, attrition in our aging workforce, and limitations on new 
hirings have already weakened key areas of our expertise, and they can 
no longer be replaced by redeployments from base funding. Therefore, 
the Library's budget request for fiscal 2016 is needed to cover a few 
critical resource additions ($13.9 million), but mostly just mandatory 
pay and price level increases ($21.9 million).
    The unique services performed by the Library's dedicated and multi-
talented staff include:
    1.  Our highest priority of providing all congressional members and 
committees with authoritative, timely, and non-partisan research and 
analysis to support the legislative and oversight work of both houses 
of Congress, through the Congressional Research Service (CRS) and the 
world's largest Law Library (LAW).
    2.  Encouraging, protecting, and preserving the work of America's 
innovative creators through the U.S. Copyright Office (COP), which 
registers these works, records copyright documents, and administers the 
Nation's copyright law.
    3.  Providing the only free public library reading service for 
blind and physically handicapped Americans wherever they live, thanks 
to the Library's National Service (NLS) and its home delivery of 
braille and talking books through local libraries.
    4.  As the de facto national library of the United States, 
providing multiple and unique services that almost invariably could not 
be done as well or better by any other existing institution. Library 
Services (LS) supports the entire library system of America through our 
cataloging standards and services and our multi-formatted preservation 
research and practices. And for 20 years the Library has been providing 
massive, curated, primary documents of American history and culture 
online for the education and inspiration of K-12 teachers and students 
and for life-long learners of all ages.
    Congress's Library is in many ways America's strategic information 
reserve: a unique multi-media resource of growing importance for 
America in the turbulent information age. At the beginning of the 
current fiscal year on October 1, 2014, the Library contained more than 
160 million analog items in virtually all languages and formats and 5 
petabytes of stored digital content. The Library also continues to 
receive, index, and store copies of half a billion Twitter messages a 
day.
    We have put in place an entirely new and collaborative top 
management team to bring our traditional analog and digital services 
closer together. We now have an outstanding new Deputy Librarian of 
Congress, Chief of Staff, and Associate Librarian for Library Services. 
All three have already successfully exercised multiple responsibilities 
within the Library of Congress and in the broader library community.
    We have also made four additional new appointments to assure the 
highest quality for future core Library services: a former Dean and 
President at two leading universities as the director of all of the 
Library's Scholarly Programs; two widely experienced technologists as 
the Interim Chief and Acting Deputy Chief Information Officers of the 
Library; and a deeply experienced new permanent head of the Library's 
financial services division, which also does work for other legislative 
branch services.
    This new leadership--as well as our year-long, staff-level Futures 
Program--has been added from within the Library without any additional 
expenses. We are doing much more work with far fewer employees. Since 
1992, the Library has added its massive digital programs to its still 
growing traditional analog collections and services despite losing 
1,429 FTE's, about 30 percent of our workforce.
    Last year, the Library provided reference services to more than 
467,000 individual researchers, recorded more than 78 million visits to 
our Web sites, and provided more than 23 million copies of braille and 
recorded books and magazines to more than 890,000 blind and physically 
handicapped reader accounts.
    In recent years, the Library has operated with progressively fewer 
resources. The total Federal appropriation has decreased in excess of 
7.8 percent: from $684.3 million in fiscal 2010 to $630.9 million in 
fiscal 2015.
    Our fiscal 2016 budget request will further reduce the number of 
authorized FTE positions across the Library by 405--11 percent--because 
we cannot support them with current funding. We have cut critical 
infrastructure, deferred important investments, consolidated broad 
program areas, and strengthened governance processes.
    We will need in the near future more flexibility in hiring an 
expert staff--not just for this Library, but for our country. The 
erosion of basic funding is already compromising our ability to deliver 
high-quality knowledge resources to the Congress and the American 
people. And we must make key new investments in the critical 
infrastructure of our aging physical plant and information technology.
    The following are some of the most pressing challenges that the 
Library faces if it is to avoid unintentionally slipping into a decline 
that might be easy to overlook but impossible to reverse.
    The Library's Congressional Research Service provides objective, 
nonpartisan information and analysis solely in support of the Congress. 
Last year, in the 100th year of its founding, CRS served 100 percent of 
Congressional Members and standing committees through tailored 
briefings, varied programs, and confidential memoranda. The Service 
supported Congress with a full range of written analyses and personal 
consultations for which the Director's testimony provides a detailed 
chronicle. CRS must often move quickly to marshal resources from a 
variety of disciplines across and beyond the Service to provide members 
and committees with legal and policy options to confront complex and 
fast-moving national and international problems.
    CRS has lost senior expertise in areas that cannot easily be back-
filled: trade, defense, natural resources, social policy, and public 
finance--and continues to need dynamically to reshape its workforce, to 
continue to provide the authoritative and objective research and 
analytical support that have been the Service's hallmark for the last 
100 years.
    Storage Space: Delays in executing the Ft. Meade master plan have 
left the Library's existing facilities functionally beyond capacity. 
Nearly a million books are currently stored on the floor or on book 
trucks in the Jefferson and Adams buildings, with more than 250,000 new 
volumes arriving every year. Continuous growth of the collections 
without a commensurate increase in acceptable storage space has led to 
a crisis of significant proportion, posing threats to the safety and 
well-being of Library staff; the preservation and security of 
collections; the ability to serve the Congress, researchers, and the 
Nation through free interlibrary loans; and preserving the structural 
integrity of the book stack areas of the Jefferson and Adams Buildings. 
We urgently seek $4.8 million to expand collections storage capacity 
through the installation of compact shelving and lease of interim 
collections storage space until planned Ft. Meade modules are 
available. We are grateful for fiscal 2014 funding for the construction 
of Ft. Meade Module 5; however, even when Module 5 is fully built and 
available in fiscal 2018, we will still be unable adequately to meet 
our storage needs and unable to mitigate the issues of overcrowding and 
safety violations. In the long run, completion of the storage modules 
at Ft. Meade will be vastly more cost effective.
    The Law Library is a small enterprise with a critical mission. The 
Law Library currently is unable to address fundamental collection needs 
after multiple years of unfunded pay increases and direct budget cuts. 
Additional funding is essential to ensure that the Law collections are 
cataloged in compliance with accessibility and classification standards 
widely accepted by all researchers. As of September 30, 2014, 
approximately 408,000 volumes remained unclassified.
    Skill Gaps: Over the last 5 years, the Library has developed 
significant skill gaps that have opened up serious holes in word-class 
expertise, many of which are caused by the Library's inability to back-
fill. Holding positions vacant is one of the few means available to 
accommodate mandatory pay raises in the absence of new funding. 
Identifying and filling skill gaps was one of the strongest 
recommendations of the staff in the Library's Futures Program.
    Library Services, the largest unit of the Library, recently lost 
the language and subject matter expertise and technical skills of its 
sole South Asian expert, seriously reducing the servicing of 
collections and reference questions about India. We also lost our 
Turkic language expert, radically diminishing our acquisitions and 
reference service for material from the many different Turkic-language-
speaking countries. The Manuscript Division now lacks high-level 
subject matter expertise in legal, military, science, and technology 
areas. And many Library Services divisions, as well as the Law Library, 
need more skilled technologists to work with our growing digital 
content.
    The U.S. Copyright Office: A Scholar in Residence recently 
delivered to the Register a comprehensive report with recommendations 
for transforming the operation of publicly recording copyright-related 
documents, including copyright assignments and licenses. It was the 
first substantive analysis of document recordation in several decades 
and will assist the Register in planning activities necessary to 
bringing recordation online in fiscal 2015 and 2016. The Copyright 
Office also recently published a major policy study on the current 
music licensing system, Copyright and the Music Marketplace, which one 
leading industry publication called a ``rare instance of government 
getting out in front of moving technology.'' The many challenges of 
copyright in the digital age are discussed in detail in the separate 
report of the Register of Copyrights to the committee.
    The Library recognizes there is much congressional discussion at 
the moment about updating the copyright law for the 21st century. This 
work could not be more important when the economic, social, and 
intellectual value of copyrighted works is so significant to America 
and the world. As the Act is updated, the Library wants to be sure that 
the concept of building, preserving, and protecting a ``national 
collection'' for the benefit of the American people is not lost.
    Fifty or 100 years from now, members and constituents will turn to 
the national collection to read, learn from, and build upon the 
creative output of American authors, composers, filmmakers, artists, 
and others--just as citizens today are reaping the value of creative 
works that were added to the collections in 1965 and in 1915.
    Copyright deposit built much of the national collection. Congress 
has made the Library the sole repository of copyrighted works. New 
works must continue to be added to the national collection at the 
Library--especially in the Internet age, when the nature of information 
itself undergoes so many changes. This is a commitment that the 
Congress, the patron of the national collection, and the Library, its 
steward, have made to current and future generations of Americans.
    Despite our many challenges, this is a time of great promise for 
the Library. Digital technology is transforming in all areas of our 
work to deliver services to the Congress and its constituents.
    We are asking for $2 million to fund the Digital Collections 
Center, to provide proper stewardship of the Library's rapidly growing 
digital content. Over the last 5 years, the Library's traditional 
analog collections have averaged 3.6 million added pieces per year. 
During this same period, archived Web content has grown exponentially 
from roughly 125 to 582 terabytes, an annual average increase of more 
than 73 percent. The development of a dedicated Digital Collections 
Center, with the capacity to manage and sustain all this digital 
content, is an essential investment to fulfill the Library's 
collections stewardship mission now and into the foreseeable future.
    The Library's strategic management of its information technology 
assets and operations is a significant issue addressed in the report 
language of this subcommittee last year and in recent findings of the 
GAO. Management of recommendations in strategic planning, enterprise 
architecture, human capital management, investment management, system 
acquisition and development, security, and service management are all 
challenges that our Interim Chief Information Officer and her Deputy 
are now moving aggressively to address; and the Library is conducting a 
national search for a permanent Chief Information Officer, whom we 
expect to have in place by the end of this year.
    Last year I spoke of the Futures Program that will inform the next 
strategic plan. Library staff from many different programs and levels 
below the Executive Committee suggested new 21st century approaches to 
fulfilling the Library's historic service missions. The Futures 
Program's recommendations have generally built on the Library's unique 
strengths and required minimal new resources. They reaffirmed the 
historical integrity and objectivity of all Library of Congress 
services--keeping the Library free from any commercial or political 
advocacy agendas and demonstrating the Library's importance for 
sustaining American leadership in an increasingly knowledge-dependent 
world, while launching new initiatives.
    The Library is also meeting the challenges of minimizing 
duplication in performing its services--placing a much greater emphasis 
on shared services both across the legislative branch and within the 
Library. Currently, the Legislative Branch Financial Management System 
(LBFMS) resides at the Library, which holds the financial system not 
only for the Library but also for four other legislative branch 
agencies. In fiscal 2016, the Architect of the Capitol will become the 
fifth cross-serviced agency.
    The Library collaborated with the House and Senate and other 
legislative branch agencies to more effectively exchange and present 
legislative information by adding new online features and data to 
Congress.gov and by contributing to the Speaker's Bulk Data Task Force. 
Internally, the Library is moving forward with a range of shared 
service initiatives, such as implementing a Library-wide geospatial 
information system to address the mutual needs of staff in CRS, Library 
Services, and the Law Library in responding to congressional requests. 
Other examples of service and economy-motivated joint opportunities are 
the execution of a Library-wide plan for the contract and use of mobile 
devices, development of a business case for Library-wide performance of 
IT security certification and accreditation requirements, and forming 
the requirements for a single authoring/publishing system for research 
performed at the Library.
    The Library's Veterans History Project (VHP), unanimously mandated 
by both houses of Congress, is now the largest oral history project in 
America. VHP will celebrate its 15th anniversary in October and will 
soon reach 100,000 recorded oral histories. Over the last year this 
program has collaborated with more than 150 congressional offices, 
providing constituent services, briefings, and volunteer training 
sessions for interviewing those who served in the military in all 
America's wars during the last century.
    In 2014, the Library continued its very popular evening services of 
Congressional Dialogues on Great American Presidents, provided 
exclusively for Members of Congress. The Library's new James Madison 
Council Chairman, David Rubenstein, skillfully interviewed renowned 
experts like David McCullough, Scott Berg, and Doris Kearns Goodwin 
about the challenges and accomplishments of seven iconic Presidents: 
George Washington, John Adams, Thomas Jefferson, James Madison, Abraham 
Lincoln, Theodore Roosevelt, and Woodrow Wilson. Members then asked 
questions and made off-the-record comments, having previously studied 
key original documents from each President's collections in the 
Library's vast holdings of early Americans. We are continuing this 
series into 2015, expanding it to include great Americans. These unique 
events regularly attract at least 120 Members of Congress, and this 
year's series opened on February 3 with a well-attended dinner and 
dialogue on Benjamin Franklin.
    The Library has presented a particularly rich array of public 
exhibitions and special events over the past year. More than 112,000 
visitors viewed the Magna Carta: Muse and Mentor exhibition at the 
Library from November 6, 2014 to January 19, 2015 in honor of the 800th 
anniversary of this document. The King John 1215 Magna Carta, loaned by 
the Lincoln Cathedral, was its centerpiece, and rare items from the 
Library's rich collections showed the Magna Carta's importance to the 
development of constitutional law in the United States. Seven United 
States Supreme Court Justices took part in the celebratory events along 
with a former Chief Justice of the United Kingdom, and HRH The Princess 
Royal, the only daughter of Queen Elizabeth II.
    Other new Library exhibitions last year included Mapping a New 
Nation: Abel Buell's Map of the United States, 1784; A Thousand Years 
of the Persian Book; and The Civil Rights Act of 1965: A Long Struggle 
to Freedom, including Martin Luther King, Jr.'s original copyrighted 
``I Have a Dream'' speech.
    The Library of Congress had an unusually rich year of free poetry 
readings and concerts. Particularly memorable was a program led by the 
great baritone Thomas Hampson celebrating the different historical 
stages and versions of our national anthem. A star-studded program at a 
packed Constitution Hall honored Billy Joel with the Library of 
Congress Gershwin Prize for Lifetime Achievement in American Popular 
Song. PBS extended the length of its nation-wide television broadcast 
from its customary hour to a first-ever 90 minutes.
    On February 4, 2015 the Library formally opened to researchers the 
Rosa Parks collection of approximately 7,500 manuscripts and 2,500 
photographs. On loan to the Library for 10 years from the Howard G. 
Buffett Foundation, the collection includes personal correspondence and 
photographs, and letters from Presidents. A small display of items from 
the collection will subsequently be on public exhibit.
    During March 4-7 we celebrated the 150th anniversary of Abraham 
Lincoln's great speech at his second inaugural with a rare public 
display of the President's original reading copy. The 15th annual 
National Book Festival will take place this September.
    The Library of Congress is the world's preeminent reservoir of 
knowledge. The Library embodies and advances the distinctly American 
ideal of a knowledge-based democracy. We will be grateful for your 
consideration of our fiscal 2016 funding request.
                                 ______
                                 
Prepared Statement of Mary B. Mazanec, Director, Congressional Research 
                                Service
    Madame Chairman, Senator Schatz and members of the subcommittee:

    As the Congressional Research Service (CRS) begins its second 
century of service to Congress, it is a pleasure to appear before you 
today to present our fiscal year 2016 budget request. Two thousand 
fourteen--our centennial year--was a time of celebration, reflection, 
and activities that drew our staff together. We also engaged present 
and former members in discussions concerning CRS, the evolution of the 
institution and its support for the Congress, and what the future may 
hold for both the Service and Congress.
    I hope you have had the opportunity to read the history we prepared 
of CRS's first one hundred years, ``CRS at 100: Informing the 
Legislative Debate Since 1914''. It not only highlights the 
accomplishments of CRS in support of the Congress but also shows the 
breadth and depth of expertise embodied in our staff and their 
commitment to our mission of helping provide for a more informed 
legislature.
    We are also very proud of another special centennial publication, 
the Senate Rules Committee Print, ``The Evolving Congress'', which 
features a series of essays analyzing important trends in the evolution 
of congressional organization and policy making over the last many 
decades. Next month, with support from the Hewlett Foundation, we are 
continuing that important discussion at a special event with E.J. 
Dionne, Michael Gerson, and Frances Lee. I hope you will be able to 
join us for what should be a fascinating evening delving into the 
history of Congress and its future development.
    Last year also marked the 100th anniversary of the Constitution of 
the United States of America Annotated, which we celebrated with a day-
long program in September. Popularly known as CONAN, this Senate 
Document is prepared by attorneys in the CRS American Law Division and 
tracks the jurisprudence of the Supreme Court of the United States. The 
program brought together prominent legal scholars and commentators and 
included a dialogue about the Supreme Court with Justice Ruth Bader 
Ginsburg.
    It was truly an honor to serve as the Director of CRS during this 
important milestone in our history.
                          support for congress
    While we celebrated our centennial, CRS also provided research and 
analysis, expert consultation, and an enhanced Web presence to support 
the full spectrum of congressional policy deliberations. In the last 
year, CRS experts worked with every member office and congressional 
committee to help you and your staffs navigate the wide range of 
complex and controversial issues that confronted Congress. We answered 
over 61,000 individual requests; had over 7,500 people attend CRS 
seminars, trainings, and briefings; and provided more than 3,500 new or 
refreshed CRS reports and other products. CRS.gov is now the repository 
for nearly 10,000 reports and other information that is accessible at 
all times.
    Two high-profile issues that were addressed by the 113th Congress 
help illustrate both the depth and flexibility of CRS work for 
Congress:
    The 2014 Farm Bill is a good case study of how the Service assists 
in the regular, deliberative process of reauthorizing major, complex 
legislative programs. From the very start of deliberations to replace 
the expiring 2008 Farm Bill, CRS food and agriculture policy analysts 
provided in-depth analysis of various legislative proposals across a 
broad spectrum of policy areas that included farm commodity support, 
conservation, trade, rural development, nutrition, credit, bio-energy, 
livestock, horticulture, and research.
    Authorizing committees, individual members, and congressional staff 
called on CRS to explain the intricacies of current farm and food 
policy and to help identify and analyze policy options for revamping 
the Federal farm safety net. As the legislation moved forward, CRS 
experts continued to provide individualized support, including 
preparing committee staff for legislative markup, analyzing proposed 
committee and floor amendments, briefing individual members and their 
senior policy staff, and evaluating a slate of legislative options.
    As a group, CRS analysts conducted several well-attended seminars 
for congressional staff on the various farm bill titles, with 
consideration of how farm bill spending is affected by pressures for 
deficit reduction. These seminars were so popular that CRS needed to 
schedule additional sessions to accommodate interested congressional 
staff.
    With many provisions of the 2008 Farm Bill expiring before the new 
legislation could be finalized, CRS also fielded many questions about 
the effects on issues of concern for members' districts. CRS staff 
responded with authoritative reports and tailored briefings to help 
members manage the evolving situation.
    The overall support to Congress was a testament to the 
interdisciplinary nature of contemporary policy deliberations, as 
agriculture and budget analysts at CRS collaborated with attorneys to 
provide comprehensive coverage of the issues.
    Of course, CRS support did not end with enactment of the 
legislation. After passage, Congress shifted to their oversight role, 
closely monitoring the Department of Agriculture's implementation of 
the new law. CRS analysts continue to play an integral role in the 
oversight process, responding to numerous requests on the implications 
of the new farm bill, and have conducted a number of ``Agriculture 
101'' briefings for member offices and committee staff about the law. 
In addition to multiple informative reports on the farm bill, CRS 
developed a side-by-side analysis of the new law compared to its 
predecessor and the Senate and House bills.
    The Ebola Virus Outbreak highlights the flexibility of the Service 
to provide in-depth research and analysis for the unanticipated, fast-
breaking global challenges that can suddenly find their way onto the 
legislative agenda.
    Last summer, reports of the rapidly spreading Ebola Virus Disease 
(EVD) raised serious concerns among U.S. and international government 
officials and lawmakers. At one point in early August, the Centers for 
Disease Control and Prevention estimated that there could be over one 
million cases of EVD globally by 2015 if the rate of transmission was 
not dramatically curbed. Those concerns, which became heightened and 
accelerated once the first U.S. case was reported, triggered a large 
number of inquiries from congressional offices, along with hearings on 
the public health, legal, and international implications of the 
disease, as well as the U.S. Government response to the crisis.
    The CRS response to this public health crisis was swift, 
thoughtful, multi-disciplinary, authoritative, and timely. CRS analysts 
from across the Service supported ongoing congressional hearings and 
investigations into the response to EVD. To provide a broad spectrum of 
information, CRS experts from multiple divisions used the full range of 
CRS products--from traditional reports to newer short-form documents, 
including Insights, Legal Sidebars, and FAQs--to examine the crisis 
from a variety of perspectives, including public health, legal, 
international health and relations, transportation and commerce, 
immigration, homeland security, and clinical research and product 
development.
    Analysts also conducted in-person briefings and hosted a ``Question 
and Answer'' event that was made available to all members and staff in 
person and through video on the CRS Web site.
    By having deep in-house expertise on a wide range of issues, and 
the ability for CRS experts to work collaboratively, the Service was 
able to quickly develop the information Congress needed on EVD. That in 
turn helped members and their staff develop appropriate courses of 
action to respond to a rapidly changing situation with broad health and 
national security implications for the country.
    Other Legislative Topics: While the Farm Bill and the Ebola 
outbreak provide a snapshot of how CRS works, over the last year, CRS 
provided similar support on the entire range of issues before Congress.
    CRS analyzed multiple economic, financial, and budget issues, 
including tax reform, oversight of the implementation of the Dodd-Frank 
Wall Street Reform and Consumer Protection Act, the Export-Import Bank 
reauthorization, and Bitcoin, just to name a few. Experts also helped 
congressional offices understand the impact of the Government shutdown 
and tracked and analyzed the fiscal year 2015 budget request and 
appropriations process throughout the year. Congress looked to CRS for 
support on many complex domestic issues, including unaccompanied 
immigrant children, veterans' health, human trafficking, child welfare, 
violence against women, and sexual assault in the military. CRS experts 
also supported the congressional debate on the Keystone XL pipeline, 
hydraulic fracturing, re-authorization of Federal highway and public 
transportation programs, and cybersecurity.
    On the foreign affairs front, CRS staff analyzed policy options to 
address the conflicts in Syria, Iraq, Iran, and the Ukraine; and 
relations with Russia, North Korea, and China. In addition, CRS 
supported the Congress on pending international free trade agreements 
and monitored the negotiations of the Trans-Pacific Partnership, and 
the U.S.-EU Transatlantic Trade and Investment Partnership.
    CRS also presented a symposium on Senate rules changes last year. 
CRS experts, a former parliamentarian, and past Secretaries of the 
Senate discussed the impact of these changes with senior Senate staff 
in attendance. The program was followed by numerous briefings and 
seminars tailored to member and staff needs.
                         budget considerations
    Over the last year, the Service has been able to fill some critical 
gaps in our analytical and information professional ranks. We also 
hired research assistants to support analysts and contribute to a 
broader mix of products and services and we continue to improve the CRS 
Web site and technical capabilities. With the additional staff, we have 
replaced about one-third of the decreases in personnel that occurred 
over the past few years due to budget reductions. While we are thinner 
than we would like in some areas, we are constantly monitoring our 
staffing across the service to ensure that we have the skill sets and 
expertise needed to support Congress.
    The CRS fiscal year 2016 budget request is $111,956,000 to fund 
mandatory pay and price level changes as well as a program increase to 
enhance research capacity on healthcare policy.
    Health Experts. The budget request includes a program increase of 
$1,087,000 and six FTEs to add six health policy analyst/attorney 
positions and $250,000 of contractor technical and programming support 
for large health data systems. This increased analytical capacity is 
needed to meet the high client demand and fully support the work of 
Congress on healthcare issues. As the healthcare industry is becoming 
increasingly complex, additional expertise is needed to analyze for 
Congress recent changes in the financing of health insurance and the 
delivery of healthcare services. Extra analytical support is also 
needed to support Congress as it confronts emerging issues under 
Medicare, Medicaid, the State Children's Health Insurance Program, and 
employer-based and private health insurance. In addition, the 
regulatory framework has become more complex, and provision of 
healthcare to veterans has come under recent scrutiny. That increase in 
demand and complexity is putting real pressure on CRS health experts, 
some of whom are shouldering two to three times the average number of 
requests as other CRS staff. The six requested staff positions would 
help relieve that pressure and add expertise in evaluating health 
industry trends and availability, tax and legal issues, veterans' care, 
and data evaluation.
    Workforce Initiatives. We are continuing to examine the composition 
of our workforce to ensure that we have the right mix of skill sets and 
expertise to best serve the Congress. Last year, we hired 11 research 
assistants to assist analysts and diversify areas of specialization. We 
also increased our editorial capacity to support authors in the 
preparation of products for Congress and have expanded our graphics 
capabilities to enhance the visual presentation of CRS research and 
analysis. Our information professionals utilize digital librarianship 
skills, and recent hires have reflected changes made to these 
positions. We plan to critically assess these initiatives to determine 
how these positions and skill sets best fit into the organization and 
what other modifications to our workforce may be needed.
    Product and Service Enhancements. CRS continues to seek new and 
innovative ways to deliver information and analysis to Congress. In 
fiscal 2014, CRS increased the diversity of its product line by 
establishing a new product type, the CRS Insight, a short, Web-only 
product designed to present timely information, research, data, and 
analysis in an easily accessible format. Along with the earlier 
launched Legal Sidebar, the Insight responds to client demand for 
succinct products that are published quickly in response to fast-moving 
public policy issues.
    CRS is participating in a Library-wide project to develop a 
geospatial infrastructure that will enable the Service to offer 
interactive maps to Congress. The goal is to make available to Congress 
fully interactive maps that allow clients to view details of interest 
and toggle data layers to visualize the resulting differences. We have 
a small team of geographic information system (GIS) analysts and 
information professionals that provide GIS services to congressional 
clients. GIS uses visualization for the focused analysis of complex 
concepts.
    CRS established an infographics working group in 2014 to consider 
methods to improve delivery of image-based content in our written 
products and on our Web site. The use of this content to convey 
information and analysis is widely recognized as an effective form of 
communication. Although image-based content (e.g., tables, graphs, 
maps) produced by CRS is typically embedded into written products, 
users of CRS products could benefit from the creation of a new product 
line devoted to stand-alone, high-quality ``infographics,'' which 
present complex information in a condensed visual form that may be 
easily understood without the need for an accompanying written product. 
A pilot study has begun with the goal of displaying infographics 
products on CRS.gov this year.
    CRS enhanced its Web site home page last year with a modern 
appearance with more space for content and for expanding product lines. 
The home page is also stylized to the modern user's preference for 
mobile access. Other new features of the website include graphic images 
to accompany highlighted reports and icons to help the user distinguish 
the different types of products. A video carousel at the foot of the 
home page highlights CRS videos, and a similar display on issue pages 
highlights CRS experts who have authored products on selected issues 
and who are available for consultation.
    As part of the Library's multi-departmental team, CRS contributed 
to continuing development and daily operations of the next generation 
legislative information system platform and services. Congress.gov will 
replace two legacy legislative information systems (LIS and THOMAS) 
with a single, modern one. CRS provided data analysis, subject matter 
expertise consultation, system testing, user testing, coordination of 
data partner relationships, and support for congressional users and 
data partners. CRS also continues to support the use of the Congress-
only LIS until equivalent capability is fully developed for the new 
Congress.gov. Since late September, 2014, Congress.gov has been the 
official website for U.S. Federal legislative information.
                               conclusion
    As CRS begins its second century, we remain committed to our core 
values and mission: providing comprehensive, authoritative, objective, 
timely and nonpartisan research and analysis on all legislative, 
oversight, and representational issues of interest to Congress.
    The entire CRS staff works hard every day to ensure that you, your 
staffs, and committees have the information, analysis, and support you 
need as you do your jobs.
    We are very proud of the work we do. But we know we could not have 
achieved all we have in our first 100 years without this subcommittee's 
support. I appreciate your continued support and look forward to 
working with you to ensure that CRS is a state-of-the-art research 
service responsive to the information and analytical needs of the 21st 
century Congress.
                                 ______
                                 
  Prepared Statement of Maria A. Pallante, Register of Copyrights and 
             Director of the United States Copyright Office
    Madame Chairman, Ranking Member Schatz, and members of the 
subcommittee:

    Thank you for the opportunity to present written testimony in 
support of the budgetary needs of the United States Copyright Office.
    As always, I am grateful to the Librarian for putting forward the 
request detailed below. While it does not reflect the entirety of 
Copyright Office needs, it is a reasonable request put forward in a 
difficult budget environment, and one of many that the Librarian has 
sought to balance. As stated in more detail in the Librarian's written 
request, the agency is also seeking funding for library acquisitions, 
storage, preservation, and staffing relating to the singularly 
important national collection.
    The Copyright Office is a congressionally-created department within 
the Library of Congress and is vested with the statutory responsibility 
of administering the Copyright Act and other provisions of title 17, 
including the national copyright registration and recordation systems 
and several statutory licenses. Today, the Copyright Office sits at the 
center of a complex and dynamic legal and regulatory system. Its work 
is vital to all types of businesses, the Congress, courts, and the 
digital economy.
    Copyright industries create jobs, invest in content, and bring to 
market important works of authorship, from films to video games to 
business software to books to musical works. The technology companies 
with whom they partner also create jobs, drive innovation, and bring to 
market a variety of platforms and mobile devices that have defined the 
digital economy. It is no surprise that copyright issues are so 
essential to trade agreements and the global marketplace.
    In past couple of years, the House Judiciary Committee has held 
extensive hearings on the copyright law, including, for example, the 
exclusive rights of authors, enforcement issues, fair use, and 
voluntary agreements. The Copyright Office has supported Congress in 
these efforts, including by testifying, assisting with interpretation 
of the law, and conducting major policy studies. Last year, the 
Copyright Office issued a major report recommending the creation of a 
small claims system. This year, the Copyright Office published a 
comprehensive report on the music marketplace and is finalizing 
additional reports on orphan works and the ``making available'' right.
    Congress is also reviewing the Copyright Office. On September 18, 
2014, the House Judiciary Committee held an oversight hearing on the 
Copyright Office, at which I testified. On February 26, 2015, it held a 
hearing entitled, ``The U.S. Copyright Office: Its Functions and 
Resources,'' at which external witnesses testified.\1\ During these 
hearings, Members of Congress covered a range of questions including 
budgetary and resource needs, efforts to upgrade and improve Copyright 
Office services, and the Copyright Office's current statutory and 
constitutional structure within the Library. We are respectful of these 
proceedings and are ready to respond to inquiries or otherwise 
participate, as appropriate.
---------------------------------------------------------------------------
    \1\ Witnesses included Keith Kupferschmid (General Counsel for the 
Software & Information Industry Association), Lisa Dunner (Partner at 
Dunner Law PLLC, on behalf of the American Bar Association's Section on 
Intellectual Property Law), Nancy Mertzel (Partner at Schoeman Updike 
Kaufman & Stern LLP, on behalf of the American Intellectual Property 
Law Association), and Robert Brauneis (Professor at the George 
Washington University Law School).
---------------------------------------------------------------------------
    Since I was appointed Register in June, 2011, I have focused the 
Copyright Office on projects that are self-evaluative, including how to 
upgrade our current practices and whether to create entirely new 
paradigms for certain processes. This might include, for example, the 
ways in which we register works of authorship or record documents such 
as assignments, licenses, security interests, and other forms of 
ownership. Most would agree that the Copyright Office must be more 
interoperable with the technology of its customers, and must offer 
timelier and more innovative services, including business-to-business 
data exchange and applications that work on mobile devices.
    As I explain further below, the Copyright Office has spent the past 
few years engrossed in foundational work, including rebuilding and 
rethinking staff positions, updating registration practices, assessing 
legal and business issues related to recordation, and conducting a 
variety of public-facing projects to engage our customers as to the 
future Copyright Office. We have undertaken this work to ensure that we 
make plans that will have a meaningful impact on our customers, and 
make IT and staffing investments that are both responsible and prudent. 
We are now at the point where we are compiling research, coordinating 
conclusions from reports, and engaging in cost and other business 
analysis. This work will proceed in accordance with available funding.
    This Committee--the Senate Subcommittee on Legislative Branch 
Appropriations--is also interested in the ability of the Copyright 
Office to evolve. In 2014, the Report language that accompanied the 
fiscal year 2015 appropriation stated:

        The Committee recognizes that the digital revolution has 
        transformed the copyright marketplace and, as a result, the 
        role of the Copyright Office in our economy. The Committee 
        finds that Copyright Office will also need to evolve and adapt 
        to the challenges of these new realities. In fact, the 
        Committee notes that public comments recently submitted by the 
        copyright community indicate that the Copyright Office is 
        currently in need of significant IT and related upgrades in 
        order to be fully interoperable with the digital economy it 
        serves.

    The Report also included a directive to the Government 
Accountability Office (GAO) ``to examine the Copyright Office's current 
information technology infrastructure and identify any deficiencies or 
obstacles to serving the copyright community in a modernized 
environment.'' We have responded to GAO's questions regarding IT 
management during the past several months and hope the subcommittee 
will find this information helpful.
    I would also note that on February 18, 2015, we released a report 
of the Technical Upgrades Special Project Team. This team was charged 
with assessing the concerns and suggestions of the Copyright Office's 
customers during the past few years, and has made a number of 
recommendations regarding future services that would require sound 
enterprise architecture and a robust IT infrastructure. I am grateful 
to the Project Team for this valuable contribution, which will serve as 
an important resource for the Copyright Office, the Library, and the 
Congress. The Report, notice of public inquiry, and public comments are 
available at http://copyright.gov/docs/technical_upgrades/.
    Thank you for your support of the Copyright Office and for 
considering the appropriations request put forward today.
                    fiscal year 2016 budget request
    The Copyright Office is funded through a combination of fees for 
services and dedicated appropriated dollars. The Copyright Office 
administers funds through three separate budgets or program areas: (1) 
Basic Budget, (2) Licensing Budget,\2\ and (3) Copyright Royalty Judges 
Budget.\3\ Together, the requests for these total $58.875 million for 
fiscal year 2016.
---------------------------------------------------------------------------
    \2\ The Licensing Budget request is $5.388 million, all of which 
derives from licensing royalty and filing fee collections paid by 
private parties (copyright owners as well as cable and satellite 
licensees) pursuant to statutory licenses administered by the Copyright 
Office. The requested increase is for mandatory pay and price-related 
increases.
    \3\ The Copyright Royalty Judges report by statute to the 
Librarian, but the Register administers their budget as an 
administrative courtesy. The budget request for the Copyright Royalty 
Judges is $1.584 million to support mandatory pay-related and price 
level increases, of which $389,000 (for non-personnel-related expenses) 
derives from licensing collections. The remainder, $1.195 million in 
appropriated dollars, is to cover the personnel-related expenses of the 
Judges and their staff.
---------------------------------------------------------------------------
    The focus of this statement, however, is the Basic Budget, which 
funds most of the Copyright Office's core work and operations. The 
Basic Budget request this year is $51.9 million. Approximately $30 
million of this is derived from fees for which the Copyright Office is 
seeking spending authority. The Copyright Office is also requesting 
$21.9 million in appropriated dollars.
    This request calls for an increase of $2.705 million dollars and 
the reinstatement of 25 FTEs. Fees would fund about $2.029 million of 
the total; we would use the fees to backfill 20 vacant positions in our 
registration program. As discussed below, the Copyright Office 
implemented a revised schedule of fees on May 1, 2014, following an 
extensive public process. Putting this money back into registration 
services is a fitting investment.
    The remaining $675,825 is a request for appropriated dollars; we 
would use this funding to add five new hires to our recordation staff.
    It should be understood that some of the Copyright Office's 
operational costs are offset by services provided by the Library of 
Congress through appropriations it receives as the parent agency. These 
costs are not itemized or tracked, and they are not taken into account 
when the Copyright Office analyzes and implements its fee schedules.
                    administering the copyright law
Registration
    If the subcommittee approves our request for additional spending 
authority, most of the 2 million dollars would go to strengthening the 
registration staff under the expert guidance of Robert Kasunic, 
Associate Register and Director of Registration Policy and Practice. In 
fiscal year 2014, the Copyright Office approved and registered claims 
in approximately 476,000 creative works, including 219,000 literary 
works and 65,000 sound recordings. Since fiscal year 2012, however, the 
Copyright Office has been experiencing an upward trend in the backlog 
of claims and average processing time for applications. In 2012, the 
average processing time for claims filed on paper applications was 4.8 
months; the current processing time is 13.5 months. The average 
processing time for claims filed online electronically has also 
increased, rising from 3.1 months to 4.4 months over the same period. 
These increases are mostly attributable to the loss of registration 
staff, which has declined by approximately 50 FTEs.\4\ (In the case of 
electronic claims, some of the delay stems from ongoing problems with 
technology systems, as well.)
---------------------------------------------------------------------------
    \4\ This number tracks losses since 2010. The Copyright Office 
today has 76 professionally trained examiners to handle approximately 
half a million copyright claims involving millions of works of 
authorship; we had close to 130 examiners in 2010. Assuming we can hire 
12-32 examiners in 2015 and 2016, the Copyright Office will still be 
below capacity, particularly given the increasing complexity of 
addressing digital works and new practices.
---------------------------------------------------------------------------
    As we hire new registration experts, the Copyright Office must 
train them in the copyright law, regulations and practices, and prepare 
them to address a constantly changing world of content and business 
models. The lengthy training schedule, coupled with the fact that the 
backlog continues to grow, provides a sense of urgency to reverse staff 
losses in this critical division. It is also the case that practices 
are becoming more complex than before, as authors, publishers, and 
producers continue to change the ways in which they create and 
disseminate works of authorship.
    In December 2014, we completed a major, multi-year special project 
by releasing the Compendium of Copyright Office Practices, Third 
Edition. The first major revision in two decades, the Compendium is a 
comprehensive guidebook regarding registration and other Copyright 
Office practices. It is relied upon by Copyright Office staff but also 
serves as a recognized authority consulted by copyright owners, legal 
practitioners, and the courts, which frequently give the Copyright 
Office deference in registration policy and related issues. This was an 
important and necessary accomplishment for the Copyright Office, and 
one that we announced publicly in our 2011-2013 work plan, entitled 
Priorities and Special Projects of the U.S. Copyright Office.
    Notably, the Compendium is just the beginning of a digital makeover 
for registration. It provides the necessary legal foundation by which 
the Copyright Office may now pursue regulations and practices that 
recognize and serve the digital economy. For example, the Copyright 
Office will need to determine the rules and standards by which it 
registers: works that change routinely (like news Web sites); works 
that are disseminated by streaming instead of copies (like on-demand 
film, television, and sports programming); works that contain valuable 
and proprietary source code (like business software); and works that 
contain copy controls and other anticircumvention measures (like video 
games).
Recording Assignments, Security Interests, and Other Copyright 
        Documents
    Regarding the recordation provisions of the Copyright Act, the 
Copyright Office also needs resources. The requested increase of 
$675,825 in appropriated dollars for fiscal 2016 would fund five new 
hires in the Recordation section. The Copyright Office has a very lean 
permanent staff of 13 dedicated to this function at the moment. In 
2014, this staff recorded 8,146 documents pertaining to copyright 
interests in more than 144,376 identified works. This function remains 
a paper process, however, in which staff manually index the materials 
received.
    In fiscal 2015, the Congress allocated $1.5 million to the 
Copyright Office to conduct planning and business analysis related to 
updating the recordation function. The long-term objective is to 
automate the document submission and review process to include an 
online filing capability for customers. Significant changes are also 
contemplated regarding service options and the content and format of 
the public record. As noted below, the business analysis we are now 
engaged in follows 2 years of research regarding the overall technology 
of the Copyright Office (relevant to its customer base) as well as the 
relevant legal and business issues related to recording documents in 
the online environment. The additional FTEs we are requesting for 
Recordation represent new positions with skills that will be more 
appropriate to an online function.
    The future of the document recordation function has been an intense 
focus of the Copyright Office for several years, and it too was 
publicly announced in the 2011-2013 Priorities work plan. In the past 2 
years, the Copyright Office engaged stakeholders through multiple 
public roundtables on potential changes to the legal and administrative 
aspects of document recordation and published a major report. We were 
able to staff this work by making targeted appointments and leveraging 
research partners.
    In 2014, with the Librarian's support, I established a dedicated 
Office of Public Records and Repositories. For the first time, as of 
March 2014, these functions are now headed by Ms. Elizabeth Scheffler, 
a senior level officer reporting directly to the Register. (As of 
January, 2015, Ms. Scheffler has been temporarily reassigned to the 
Librarian's Office where she is serving as the Interim CIO for the 
Library until a permanent CIO can be recruited.)
    I also appointed the first Abraham L. Kaminstein Scholar in 
Residence, Professor Robert Brauneis of George Washington University. 
In addition to his own independent research, Professor Brauneis 
completed an in-depth study of the relevant legal issues related to 
updating the business and legal issues related to recording copyright 
documents. Similarly, through Jacqueline Charlesworth, the Copyright 
Office General Counsel, the Copyright Office engaged with Stanford 
University Law School in an academic partnership. Working with 
Professor Paul Goldstein, the Copyright Office considered recordation 
questions from the perspective of students in Silicon Valley. In 
January 2015, we released the report of the Kaminstein Scholar, 
entitled Transforming Document Recordation at the U.S. Copyright 
Office, which in turn references the work of the Stanford students.
Statutory Licenses
    The Copyright Office administers several statutory licenses that 
require the Copyright Office to manage and distribute royalties, 
including those collected on behalf of copyright owners of broadcast 
television programming that is retransmitted by cable and satellite 
operators. The disposition of these private monies is determined by the 
Copyright Royalty Judges (together, the Copyright Royalty Board or 
``CRB'') in distribution proceedings. The work of the CRB is reviewable 
by the Register for legal error, but for constitutional reasons the CRB 
reports to the Librarian as head of the agency. In fiscal year 2014, 
the Copyright Office collected approximately $318 million in royalties 
and made disbursements in accordance with CRB's decisions.
    In fiscal 2014, the Copyright Office completed a second pilot of an 
electronic licensing system to facilitate its administration of 
statutory licenses. The end goal is to launch a system that supports 
online filing and processing of statements of account by statutory 
licensees. As with all Licensing Division operations, this 
administrative initiative is being funded by private funds collected 
under the relevant licenses.
              supporting the congress and federal agencies
Copyright Policy and the Digital Economy
    With respect to policy, the Copyright Office has been at the center 
of discussions regarding potential updates to the Copyright Act, 
working closely with Members of Congress and, in particular, the House 
Committee on the Judiciary. As mentioned above, the House Judiciary 
Chairman convened twenty copyright hearings in the past 2 years, with 
the clear mission of comprehensively reviewing the law to assess how 
well it is working in the digital age. As Register, I have both 
testified on these issues and lent the impartial expertise of my Office 
to assist the process. Associate Register Karyn Temple Claggett, and 
her policy and international affairs staff, were of particular 
assistance during these proceedings.
    It would be an understatement to say that the copyright law is 
complex. Indeed, in the context of the digital economy, the entire 
copyright ecosystem is in a state of ongoing transformation and 
innovation. While challenging, this is also an exciting development for 
the United States, which has long championed a strong but balanced 
intellectual property framework to the benefit of both the content and 
technology industries.
    In addition to its service to the Congress, the Copyright Office 
supports the work of the U.S. Trade Representative, the U.S. Department 
of Justice, the U.S. Department of State, and the U.S. Department of 
Commerce. This work involves major trade agreements, treaty 
negotiations, Supreme Court briefs, and other interagency and 
intergovernmental matters. The Copyright Office has relationships with 
copyright and other intellectual property offices around the world, and 
is frequently involved in intergovernmental and bilateral meetings, as 
well.
Policy Reports of the Copyright Office
    In February 2015, the Copyright Office published an in-depth study 
and legislative recommendations entitled Copyright and the Music 
Marketplace. This report, which analyzes the statutory framework and 
business environment of the music industry, is indicative of the 
Copyright Office's policy role. The report has been recognized by 
Members of Congress, songwriters and composers, music publishers, 
performing rights organizations, record labels, and digital delivery 
services. The expertise comes from the Copyright Office's daily role in 
administering the Copyright Act, and the legal and cultural 
significance of issues such as these is an important factor we use to 
recruit talented lawyers. Nonetheless, the lack of resources, including 
insufficient staff and travel budgets, makes for a challenging 
environment for even the most dedicated of public servants.
    In addition to the music study mentioned above, the Copyright 
Office is currently preparing to issue reports on orphan works and mass 
digitization issues, as well as the application of authors' ``making 
available'' rights in the online environment under U.S. law. Beyond 
studies, the Copyright Office works closely with congressional offices 
every day to provide assistance on complex issues.
    Through its work with the Intellectual Property Enforcement 
Coordinator, the Copyright Office is also nearing completion of an 
online index of fair use cases to serve as a resource for authors and 
others.
              challenges of the current fiscal environment
    The Copyright Office carries out a significant workload for the 
benefit of the Nation. It is doing so, however, with reduced staffing 
and technology deficiencies. These challenges are part of broader 
discussions throughout the Library, but I will note them here briefly.
Staffing and Appointments
    The Copyright Office's total staff is smaller than it should be to 
perform its complex and important statutory assignments. We currently 
have approximately 360 filled positions under the Copyright Basic 
Budget, a number that will improve somewhat if fees remain steady and 
we can make the 25 requested hires in Registration and Recordation in 
fiscal 2016. Internally, staff reductions are felt as a workload 
distribution increase on already over-burdened employees. And over time 
the Copyright Office will be at a disadvantage if it cannot attract and 
retain experts, particularly in the legal and technology fields.
    To compound the stress, our authorized FTE ceiling will be reduced 
to 411 (for the Copyright Basic Budget including the 25 FTEs mentioned 
above) following recent congressional direction to the Library to 
reconcile and eliminate unfunded positions. This is a considerable 
reduction at a time when the Copyright Office needs staff and would in 
fact hire them if it had funding. In 2005, by comparison, the FTE 
ceiling was 492 (again, for the Copyright Basic Budget).
    On a positive note, the Copyright Office completed the first phase 
of reorganizing its departments and resources in 2014 and has begun 
filling senior-level positions as a foundational step toward a fully 
modernized Copyright Office. Among other things, with the Librarian's 
support, I established the first Copyright Office Chief Information 
Officer (CIO). Doug Ament was appointed to the position in March 2014, 
after serving several years of heading the Copyright Office's small 
technology office. As CIO, Mr. Ament advises the Register on strategic 
IT issues and engages regularly with our customers, as well as 
technology experts in the government and private sector. He, in turn, 
appointed a new Director of the Copyright Technology Office, who 
reported for duty this January, and is responsible for managing day-to-
day activities of the Copyright Office's IT team and overseeing 
compliance issues with Federal law, regulations, information technology 
standards, and best practices.
    Although these are positive first steps, the reality is that 
Copyright Office has a very small technology office that as of this 
writing has approximately 23 FTEs. This office has always functioned as 
a liaison office to the parent agency, which manages the agency IT 
resources and has more than 200 IT staff. I believe that engaging in 
the kind of IT development activities the Copyright Office needs to 
achieve in the coming years--including building the next generation 
online registration system, achieving interoperability with private 
databases, accommodating mobile technologies, and more--will require 
the agency to reassess this management paradigm.
    The Copyright Office also has a new Office of Public Records and 
Repositories, headed by an experienced senior-level official who 
reports directly to the Register. Similarly, I appointed William 
Roberts, an experienced copyright lawyer and long-time public servant, 
as the first Associate Register and Director Public Information and 
Education. As with other positons mentioned here, this position carries 
out significant responsibilities, including managing the substantive 
content and protocols of www.copyright.gov, the portal through which 
customers access legal materials, participate in rulemakings, register 
claims to copyright, and record licenses and other copyright documents.
Government Accountability Office
    The agency's IT systems and infrastructure are of paramount concern 
for the Copyright Office, and it has been working with the Library, the 
public, and the Government Accountability Office (``GAO'') to assess 
IT-related issues in the past year. Last year, the House Appropriations 
Committee directed the GAO to conduct a Library-wide audit of IT 
management and governance. Copyright Office staff provided information 
for the audit and were interviewed by the auditors.
    Moreover, this subcommittee directed the GAO to review the 
technology issues relating specifically to the Copyright Office. GAO 
was instructed to identify ``any deficiencies or obstacles to serving 
the copyright community in a modernized environment.'' The subcommittee 
also directed the GAO to ``provide a legal and technical evaluation of 
the information technology infrastructure that the Copyright Office 
shares with the Library of Congress.'' These directives followed from 
the subcommittee's recognition that ``the digital revolution has 
transformed the copyright marketplace and, as a result, the role of the 
Copyright Office in our economy.'' The subcommittee report also cited 
comments and concerns submitted by a variety of actors throughout the 
copyright community indicating that the Copyright Office needs 
significant IT upgrades to become fully interoperable with the digital 
economy that it serves.
    Copyright Office staff has been responsive to GAO's team, which 
included some of the same auditors assigned to the Library audit. We 
appreciate the work of the auditors and look forward to their findings. 
Having completed several years of core foundational research, the 
Copyright Office remains extremely concerned about recommending major 
IT investments while continuing to utilize the singular enterprise 
architecture and IT infrastructure of the Library, which is under 
considerable strain. Service from the Library has been inconsistent at 
best, as the Library's IT staff manages multiple projects and systems 
from across the agency. Indeed, although the Library has more than two 
hundred IT staff, none are devoted exclusively to the Copyright Office. 
It is difficult to see how this kind of paradigm is sustainable. In 
short, the Library is faced with multiple missions and an array of 
equally important but competing concerns, in some ways adding up to an 
impossible job.
Technical Upgrades Special Project
    During the past few years, the Director of the Copyright Technology 
Office, who has served as the Copyright Office's first CIO since last 
February, chaired a special project designed to assess the areas in 
which the Copyright Office needs to modernize, which included 
soliciting the talent and expertise of the Copyright Office's customers 
and stakeholders. In February 2015, the project team delivered its 
findings and recommendations to me, and I have in turn released them to 
the public. This document, Report and Recommendations of the Technical 
Upgrade Special Project Team, will be a very helpful resource as we 
consider future strategies for the Copyright Office. The report 
acknowledges challenges with the current user experience and with 
access to the public record, while offering recommendations for 
improvement, such as developing a more dedicated IT infrastructure to 
support the registration and recordation functions, and deploying 
Application Programming Interfaces (``APIs'') to provide for data 
exchange with the rich data of private copyright databases. The Report 
is available on the Copyright Office Web site.
                    statutory authority to set fees
    The Copyright Office appreciates the subcommittee's dedicated 
appropriation in fiscal 2015 of $2.25 million, with $750,000 to fund 
backlog reduction in registration and $1.5 million for year one 
planning and analysis for the reengineering the document recordation 
process.
    More globally, as Register I have concluded that we should 
reconsider the funding process for the Copyright Office as it relates 
to fees. For business planning, including expenditures for IT and 
related issues involving multi-year contracts, the Copyright Office is 
constrained by the inability to spend across multi-year budget cycles. 
In addition, the Copyright Office would benefit from more flexibility 
in both its retention and spending of fee revenues, particularly in 
relation to longer-term capital improvements. This would require a 
review of the statutory provisions for fees in Chapter 7 of the 
Copyright Act.
    I would like to thank the subcommittee members for your support of 
the Copyright Office and national copyright system. Our fiscal 2016 
budget request, if approved, would address some immediate, high-
priority needs, primarily through the authority to hire staff and use 
fee revenues received for services rendered.

    Senator Capito. Thank you so much.
    I'm going to begin with a question about--and this will go 
to the posters, I believe, and thank you for visiting my office 
and helping me understand some of the challenges.
    In your budget request, you've asked for $4.8 million and 
nine new FTEs for the National Collection Stewardship Program 
to provide additional collections space. I understand this is 
an interim solution that consists of some additional compact 
shelving within the Library's existing buildings and the lease 
of additional storage space.
    Would you please explain why this is necessary and if and 
how the work would be phased out?

                NATIONAL COLLECTION STEWARDSHIP PROGRAM

    Dr. Billington. Well, I would just say that the Library 
adds approximately 2.5 million items to the collections each 
year, and of the 2.5 million analog items, 250,000 volumes are 
books which make up the largest component of our immediate 
space requirements.
    I'd like to turn to Mark Sweeney, who can provide you with 
more specific details on the emergency collection storage needs 
of the Library and answer your questions more fully.
    Mr. Sweeney.
    Mr. Sweeney. Collection storage is a critical need for the 
Library right now. As Dr. Billington said, we are growing at 
about 250,000 volumes per year. We have more than a million 
items that are stored on the floor or on book trucks in our 
Capitol Hill buildings. We have about a million volumes stored 
at our Landover Annex Complex that is in a less-than-desirable 
environment, and we're about 10 years behind in building Fort 
Meade preservation modules for the growth of our collection.
    So our plan right now is to be able to occupy Ft. Meade 
Module 5 when it becomes available in late 2017. At the same 
time, we are looking at space in our existing buildings here on 
Capitol Hill. This is primarily the Madison Building, where we 
can get greater collection density by installing compact 
shelving. We're limited in how much of that we can do, but it's 
based on the physical limitations of the building, what 
collection weight the building can handle.
    In addition to that, we're requesting an interim lease 
facility. This would be a 5-year lease with additional 5-year 
options.
    Senator Capito. Where is that lease? If I could just 
interrupt you quickly, where is that facility?
    Mr. Sweeney. At this time we're working with the Architect 
of the Capitol to identify a facility that can meet the 
requirements that we've already provided them.
    Senator Capito. Okay.
    Mr. Sweeney. The two posters that we have to the left over 
here, the first one, the one closest to me demonstrates the 
books that are on the floor, as well as book trucks. This 
arrangement inhibits our ability to retrieve material. It also 
puts the books at risk in terms of damage. And then the lower 
image, number 3, demonstrates a location in which we have a 
structural deficiency in one of our storage buildings.
    The poster to the left of that is our solutions. The first 
is a photograph of our high-density preservation storage 
facility at Fort Meade, a wonderful storage environment, that 
can not only hold an awful lot of material but also can 
increase the longevity of those collections; as well as image 
number 2, which is an example of using existing space and 
getting more density by shelving material by size. The third is 
an example of compact storage solutions that were installed in 
our Adams Building, which give us about a 40 percent increase 
in capacity in that space.
    Senator Capito. Well, following up on that, if you're 
collecting more than you've ever collected before, and part of 
your budget speaks to the digitization of certain items and 
certain other things in terms of the demands on your budget, 
what kind of prioritization is the Library doing in terms of 
reconfiguring what your collection priorities might be in terms 
of trying to balance the burgeoning collection that you're 
doing here, the digital you're doing here, and maybe meshing 
that with some sort of efficiencies?

                       DIGITAL COLLECTION CENTER

    Dr. Billington. Between the additional small elements, 
relatively, that we're adding to the digital collection center, 
and the priorities involved that Mr. Sweeney was able to speak 
to--adjudicating between digital and a hard-copy or analog 
version--qualitative judgments are made on the basis of what is 
the substance. There are qualitative judgments made throughout 
the process of collection building. But I think Mark can speak 
to that in more detail.
    Mr. Sweeney. Well, I would say that we live in an 
interesting time in which there is just an explosion of 
creativity. So we're living in a ``both'' world, both having to 
collect analog at scale, as well as emerging digital 
collections. To date, our digital conversion program has 
primarily been about access. That's taking an analog item 
already in our collection, putting it in digital form, and 
making it accessible on the Web. That doesn't mean that we no 
longer need the analog copy or that it shouldn't be part of our 
collection. We have taken some steps to reduce holdings. We are 
reducing our dependence on second copies of works in our 
collection so that we can get some efficiency there.
    Senator Capito. Right.
    Mr. Sweeney. However, this is not going to accommodate the 
volume of work that we anticipate will be available on the 
market that will be needed for Congress and the American 
people.
    Senator Capito. Let me ask you this. You mentioned in your 
opening statement that your FTEs are way down, yet in the 
budget you're asking for 15 more full-time equivalent positions 
for a new digital collections center. Help me understand how 
some people--their positions aren't being filled is probably 
how you're doing that, I would imagine, through attrition and 
other ways. Is that how you got down to that number, and are 
you ramping up for different skill sets, and are you cross-
training folks so that when the digital collection center is 
inventoried they can move into different parts of the Library?
    Dr. Billington. I think that maybe Mr. Sweeney and possibly 
the Deputy would want to add a few words on that.
    Mr. Sweeney. Of course, our level of staffing down is 
primarily through attrition. There is a different skill set 
that's required to work with digital content, and the staff 
that we have available, the diminished number of staff, are 
primarily preoccupied with dealing with the analog collections, 
which have also grown.
    So the DC2, the digital collection center, is an 
opportunity for us to meet an emerging demand that we have, and 
this is not about converting analog items into digital form. 
It's primarily about dealing with digital content that's newly 
being received by the Library, where there is no analog 
equivalent.
    Senator Capito. Okay. I wanted to compliment you on the 
Books for the Blind and Physically Handicapped. We talked about 
this when you were in my office, and you mentioned that West 
Virginians have chosen to access this as a service, and I think 
that it has been a great service for those folks. So I want to 
say thank you on that, and I was wondering, with the budget 
request there, is there enough there to cover these needs? 
Obviously, it's the only free access library in the country, is 
the way I understand it, for the blind and physically 
handicapped. If you could just give me hope for the future on 
that and where you see that going.

       FUNDING FOR BOOKS FOR THE BLIND AND PHYSICALLY HANDICAPPED

    Dr. Billington. Well, since 1931 the National Library 
Service has been addressing the needs of this important 
constituency. I think Karen Keninger, our excellent head of the 
National Library Service, can provide you with the details and 
answers to your questions. I know that there are five major 
distribution centers in West Virginia, but she'll give you more 
of the details.
    Ms. Keninger. Thank you, Senator. The budget that we have 
requested will be sufficient for the upcoming year. We are very 
fortunate in that regard at this point in time. So we are okay 
there.
    Senator Capito. Finding more people, becoming aware of the 
services, is your reach broadening?
    Ms. Keninger. We are actually in the process of launching a 
public education and information program that will, we believe, 
expand our reach and increase our service. We have a lot of 
things to offer people, and it's always been a challenge to let 
people know that we're there at the time that they are ready to 
take advantage of it. We share that responsibility with our 
partners in all of the States, and they do what they can. We're 
going to be doing a national program, as well as helping the 
states with some local and regional advertising and outreach as 
well. So we're hoping that we'll be able to expand our reach 
significantly in the next couple of years.
    Senator Capito. Thank you, thank you.
    Another question I had, you mentioned in your opening 
statement that you had a world reach, you're the world's 
resource, and we've been reading news reports of ISIS members 
destroying artifacts of ancient civilizations.
    I'm curious to know if the Library's overseas offices have 
been successful in salvaging any art relics or artifacts that 
may have been or may yet be targeted for destruction, and how 
has the Library's overseas operation been impacted, if at all, 
by any kind of ongoing terrorist activities in the Middle East? 
Because you have several offices in the Middle East.

               IMPACT OF TERRORISM ON OVERSEAS OPERATIONS

    Dr. Billington. Yes, we do. Of course, three-dimensional 
objects, the kinds of things that are in museums, are not part 
of the Library's collection policy. But the sort of paper-based 
things, archival things, books, maps, the things which record 
the knowledge and essential information about many of these 
countries, have been very much on our mind.
    We've played a role. We don't have a foreign aid budget, 
but we have expertise in dealing with fires and damage, which 
the State Department will fund trips for. We provide the 
expertise, which we have done in the case of the Iraq National 
Library to a very substantial degree.
    The damage that has been done in Egypt, where we have a 
Cairo office, and damage or real destruction of the historic 
laws of Afghanistan, where we have duplicate copies of some of 
this material and can restore some of the historical memory of 
Afghanistan in our Pakistani office, are examples of the kinds 
of damage, associated with fire or water, where restoration 
assistance has been provided working through our overseas 
bases. We had to move our Cairo office, which collects 
generally in the Arab world, when there was chaos there. The 
Cairo office was directed from Washington for a while.
    The overseas offices are directed by American employees, 
but there are multiple foreign service nationals who work on 
building the collections. In certain areas like Yemen most 
recently and in large parts of Syria, options have been 
limited. We still get some things from Damascus, but not much 
from Aleppo, for example.
    Our six overseas offices are mostly in danger spots. The 
one in Nairobi gave us additional background, for instance, on 
our first African American President. We also collect in these 
overseas offices for other research libraries in America that 
conduct research in these languages, who pay for the materials 
they receive.
    So the overseas offices are an enormous asset for America, 
a very important service that we're able to provide.
    Mark may want to add something to that since that's part of 
his immense domain as keeper of the National Collection. But it 
is also an international collection of great importance, and 
Mark may want to add a word.
    Mr. Sweeney. I would just say on the impact of terrorism on 
our operations, first we've had to contribute to capital cost 
sharing for improved security in embassies, because that's 
primarily where we operate out of. So that's had a budget 
impact on us. In Cairo and Islamabad, both of our directors 
have had to be out of country for periods of time because of 
security issues. We've also had the offices closed for periods 
of time so that the national staff weren't available to be able 
to work there.
    So it's a difficult situation, but we continue to work with 
our staff there, as well as with agents that we have in some of 
the problem countries in order to be able to acquire material. 
Sometimes they'll hold material for a period of time for us 
until it can be safely sent to Washington.
    Senator Capito. Okay. Well, I think that's an aspect of the 
Library of Congress that not many Americans really know about, 
and I wanted to highlight that because it's an interesting 
service. I think if we're going to learn the lessons of the 
past, we have to preserve the documentation and news and 
everything else that revolves around that.
    My last question will be around the Congressional Research 
Service, which every member of the House or Senate, has used. 
It is a vital resource to us as a non-partisan, very objective 
view of a variety of issues, obscure and not-so-obscure.

                      HEALTHCARE EXPERTISE IN CRS

    But the budget request is asking for six full-time 
equivalent positions for the expertise of healthcare. I 
understand the need for six more people for the expertise in 
healthcare with all of the various things that are moving 
around with the ACA and Medicare and Medicaid. It's very 
complicated and it needs to be examined as closely as possible.
    But I would ask, are there other areas where less expertise 
is needed where you can shift people? Or do you feel that 
healthcare is the premier need right now? Does that mean in 10 
years it will be something else? Do you have any feel for that 
on the CRS?
    Dr. Billington. Dr. Mary Mazanec, who is actually a medical 
doctor as well as a qualified lawyer, is the best person----
    Senator Capito. She must like school.
    Dr. Billington. I would just make this one quick comment, 
and that is that you need real expertise. I think they only 
have one expert working mainly in this field. She can specify 
exactly. But you can't spread them too thin or you don't have 
the kind of highly specialized expertise that for 100 years now 
the Congressional Research Service (CRS) within the Library has 
been providing to Congress. So I think this is the minimal 
request, and it's not solely, but it's mainly for healthcare.
    Dr. Mazanec can explain.
    Dr. Mazanec. Thank you. I would echo what Dr. Billington 
said. In the last 5 years, and that's about my tenure at CRS, 
our staffing numbers have come down, and we have looked at 
portfolios as people have retired and left CRS. We have 
reassigned issue areas. We're spread very thin, especially in 
the healthcare area. It's received the highest volume of 
requests across the Service. It receives about 10 percent of 
our targeted inquiries.
    On top of that, the capacity that we're seeking in these 
six FTEs really is not adequately represented in the current 
staffing. It requires academic study and professional 
experience that we don't sufficiently have; for example, a 
health tax policy expert, or an expert on the private insurance 
sector, the industry.
    As you stated, Chairman, the healthcare sector is becoming 
increasingly complex as it evolves. There is increased 
regulation. So I also think there are emerging issues every day 
in Medicare and Medicaid. I don't think that healthcare is 
going to become a quiescent issue area in the near term, or in 
the longer term, especially as the population ages and their 
health needs increase. Healthcare expenditures also represent a 
significant percentage of our national economy, and I am told 
by my experts, my health experts, that 40 percent-plus of 
Americans currently receive health benefits at least in part 
from various Federal programs.
    So I really do think that we need to build additional 
capacity in this area.
    Senator Capito. I said that was my last question, but this 
will be a short one.
    We've had testimony from the GAO and others that they're 
having difficulty finding the level of expertise they need 
mostly in the economics field. Do you share that same 
difficulty finding expertise, or do you rely mostly on, once 
folks get in the door, training them on how to research, et 
cetera?
    Dr. Mazanec. We do both, but there is a certain expertise 
that has to come in through the door, and I would agree with 
both Doug Elmendorf and Gene Dodaro that healthcare economists 
are very marketable. They're difficult to recruit because there 
is such demand today, and even more difficult to retain.
    Senator Capito. Right. Thank you.
    Senator Schatz.

                   STATEMENT OF SENATOR BRIAN SCHATZ

    Senator Schatz. Thank you, Chair Capito.
    I think it's important in the digital age to remember that 
books matter, libraries matter. I subscribe to the ``both/and'' 
approach. I support the Library's effort to incorporate digital 
material into its collections and make materials available 
online whenever possible, but I also support the Library in 
continuing to collect physical materials.
    It's important to recognize that search engines are not 
curated by experts. Libraries have not and cannot be replaced 
by the Internet.
    Funding for the Library of Congress, which we review today, 
supports the subject-matter experts and library scientists who 
curate and preserve American creativity and scholarship. It's 
this world-class knowledge and care that makes the Library of 
Congress the premiere repository of our Nation's historic works 
and original knowledge, and the largest, broadest-reaching 
library in the world. It's our responsibility to show this to 
our children. Libraries aren't dusty museums that the Internet 
left behind. They are living, breathing, and growing 
institutions that deserve our investment. This makes our job of 
ensuring that the Library has the resources it needs to curate, 
preserve, and store its collections especially important.

                    BUILDING THE DIGITAL COLLECTION

    My first question for the Library of Congress has to do 
with digital collections. Due to the rapid growth of digital 
technology and content, the rate of the Library's digital 
acquisitions now rivals that of its analog collections. You may 
not characterize it as analog. I'm interested to learn how the 
Library plans to build and improve upon its digital capacities 
to best fulfill its historic mission.
    So, what is your long-term vision on building the digital 
collection, and how is that reflected in the budget request?
    Dr. Billington. Well, I think I should perhaps turn that 
over to Liz Scheffler, our new interim chief information 
officer. She's been working to deal both with the 
infrastructure question, the status, and the outline of our 
future path and strategy in this area. But perhaps we should 
also call on Mark Sweeney, because the integration of the 
digital, the choice of prioritization of whether you take a 
digital or an analog object when both is available depends on 
the substance, because we're interested in the best substance.
    But I would just say, before I turn it over to my 
colleagues on this very important question, I appreciate your 
general statement as well as your focus on this, because 
integrating the digital with the analog so that we can answer 
the questions the Congress asks and the Nation requires a 
qualitative selection process for its national collection. So 
nothing could be more important.
    I'll begin with Liz Scheffler, who has a great deal of 
experience in this and is our interim chief information 
officer, and then I'll call on Mark Sweeney who will answer the 
other questions that she may not cover.
    Liz, go ahead.
    Ms. Scheffler. Thank you, Dr. Billington, and thank you so 
much for the question.
    My focus is primarily on the ability to accept what the 
Library decides it wants to collect on the digital side, and 
working alongside Library Services, the Law Library, and also 
Copyright, on how it will be stored and preserved for the 
future. My primary focus right now as part of the overall 
Library IT strategic planning that I'm leading is planning for 
the long-term storage needs on the technology side which, 
looking at the rapid growth we've had--and I should say it like 
this: last year it was triple what we had expected, and we do 
not expect that to end, as far as the growth levels grow, of 
receiving the digital materials.
    So we're looking forward to working alongside Mark Sweeney 
and the others as we plan what will be the needs.
    I'm going to turn it over to Mark because Mark is really 
the expert.
    Senator Schatz. Well, can I just ask a question? There are 
several questions. One of them is how, operationally, you're 
going to do this. Another is who makes the judgments and what 
judgments are to be made about either what comes in digitally 
and then gets archived or comes in in analog form and then gets 
digitized? But then the other question is, to what extent is 
this all reflected in the budget request? So, could you speak 
to those questions?
    Ms. Scheffler. Okay. Let me go first and say we look to the 
Library side, basically those who are in charge of the 
curatorial aspects, to be providing to the technology side what 
will be their needs and what they will be collecting and what 
will be digitized, and that we work as a partnership.
    Senator Schatz. But does the expertise, is it the same set 
of knowledge and expertise and all the rest of it on the 
Library side, so to speak, or is there a growing field of 
specialized expertise in the curating of digital materials? 
Because it seems to me that may not be the same expertise.
    Ms. Scheffler. There is a different expertise, and I'm 
going to rely on Mark Sweeney, who leads Library Service, to 
discuss what that program will look like.
    But what we do on the technology side is we work alongside 
them as they determine what they want to bring in, what will be 
digitally collected, which is born digital, will be digitized, 
and then how we'll be storing it, whether it will be in long-
term storage, how things will be presented to the public.
    Senator Schatz. So, in the interest of time, I'd actually 
like to maybe put these questions in the record----
    Ms. Scheffler. That would be fine.
    Senator Schatz [continuing]. And have you get back to me on 
the details. But here's sort of a more basic question.
    How far along, how mature are your processes and 
procedures? How mature are you in your hiring? I mean, are you 
all set and now you have to fund it and execute, or are you 
sort of boarding a moving train at this point?

                    STAFFING THE DIGITAL COLLECTION

    Ms. Scheffler. I would never say we're boarding a moving 
train. However, I would say that there is an upside to maturity 
and that we have been doing this for a number of years. We've 
learned a lot from what we have done. We know what we have to 
do to proceed to the future.
    Senator Schatz. Okay, thank you.
    Dr. Billington. Mark may be able to provide an answer on 
this.
    Senator Schatz. Sure, go ahead, and then we'll move on to 
the next question.
    Dr. Billington. Thank you.
    Mr. Sweeney. I think the heart of your question speaks to 
why we proposed the Digital Collection Center and the number of 
staff for that. We do have some experience with acquiring 
already born digital content, but we know that we have to scale 
that, and the expertise that is needed is both curatorial, 
identifying what is of value in digital and bring it in, but 
also requires skills that are unique to managing that content 
both from the moment it arrives at our institution, adding 
metadata to it, having preservation plans for it, and 
eventually making it accessible. So it's really the whole life-
cycle of it.
    Senator Schatz. Thank you.

            COPYRIGHT OFFICE WITHIN THE LIBRARY OF CONGRESS

    Dr. Billington, I have a question for you about the 
Copyright Office within the Library of Congress. This was based 
on the Library's need to build its collection by acquiring one 
copy for each registered work. So it made sense at the time for 
the two entities, the Copyright Office and the Library of 
Congress, to operate under one roof.
    My view is that the reality has changed, and now the 
Copyright Office has a staff of more than 400 who are 
responsible for processing nearly half-a-million copyright 
registrations each year, maintaining the national copyright 
recordation system, and administering all of our copyright 
laws.
    The work of the Copyright Office is vital to the Congress, 
the judicial system, copyright-related industries, 
international trade and the global marketplace. I'm worried 
that the Copyright Office may be out-growing its home within 
the Library of Congress and that it may no longer be the right 
fit. As we deliberate--and this isn't a decision that we would 
undertake precipitously, but I wanted to put this question on 
the table because I think that we need to reevaluate whether 
this fit which had a specific rationale a long time ago makes 
sense anymore.
    Dr. Billington. Well, as I said in my introductory 
statement, there are many questions about how copyright will 
function in the future. I think it's extremely important to 
remember that before 1870-1871, when the Congress decided to 
put Copyright inside, to function within the Library of 
Congress, that nothing copyrighted was preserved at all. So the 
question of determining what is important to have as 
permanently preserved and ultimately part of the national 
memory and the national collection was a basic reason for 
bringing it into the Library in the first place.
    Now, of course, things have changed. The problems have 
multiplied. We've requested 25 new FTEs, exactly what the 
Register requested for this year to address operational 
requirements.
    I think the most important thing to consider in the future, 
in how you modernize the Copyright Office from the point of 
view of the national collection, is that the record of the 
private-sector intellectual and cultural creativity, innovation 
and creativity has to be preserved for the future.
    Senator Schatz. Well, I agree.
    Dr. Billington. Prior to 1870, deposits were kept for the 
purpose of enforcing the copyright laws; the preservation of 
these records was not a consideration. So this is an important 
Library consideration that is very central because it's one of 
the two things that we are unique custodians of for the rapidly 
changing future: the world's knowledge and America's 
intellectual and cultural copyright activity, which would not 
be priorities of the Patent Office or other places that might 
be considered an appropriate location.
    I'll let the Register speak to this issue, Maria Pallante, 
our Register of Copyrights.

           RESOURCES AND ORGANIZATIONAL LOCATION OF COPYRIGHT

    Ms. Pallante. I appreciate the question very much, Ranking 
Member Schatz. I think, as Dr. Billington said, there have been 
a lot of long-term synergies between the Copyright Office and 
the Library. But as you stated, ultimately today they need to 
focus on acquisition preservation and making use of scholarly 
materials. For a variety of reasons, we need to focus on 
serving e-commerce, and we administer a Federal law that 
protects intellectual property rights.
    The reason that I think the tensions are becoming more 
apparent, or the challenges, to use a better word, is because 
of resources. So before, for example, I can ask you for capital 
funds to bring recordation online. Because it's still paper, I 
think the question is how do we make that investment. Do we do 
it in the current Library infrastructure for IT, or do we begin 
to make investments in a more strategic, targeted way? And 
that's without getting into some of the constitutional issues 
and other things that are pending before the Judiciary about 
the relationship. But there certainly are still some synergies.

                COPYRIGHT--LIBRARY OF CONGRESS SYNERGIES

    Senator Schatz. Can you give me an example of some of the 
synergies? I'm wondering if there are economies of scale 
operationally? Because it doesn't seem to me that you're 
actually operating together.
    Ms. Pallante. I think there were, but we're subordinate to 
the Library in terms of the organization.
    Senator Schatz. So what are the synergies?
    Ms. Pallante. The synergies are that to the extent we 
continue to request materials for the purpose of examining them 
for legal protection and preserving them for litigation, it's 
certainly possible that the Library could continue to be the 
repository for those materials.
    What we're finding, though, is that that has to be done 
according to a very careful regulatory scheme that can't simply 
just be made available to the public as though they're part of 
the Library's regular collection because people have given them 
to us because they want to protect their rights, not re-publish 
the work. Those are not things that I think we can't solve.
    The bigger question, though, is if we're going to re-think 
registration, period, do we need those kinds of preservation-
quality deposits. That has to be aired publicly and carefully 
and can't just be an agency decision.
    Senator Schatz. Thank you, and thanks, Chair Capito, for 
your indulgence. I'm done with the Library of Congress.
    Senator Capito. Senator Murphy.
    Senator Murphy. Thank you, Madam Chair. Just one question 
for Dr. Billington.

                      CAIRO, EGYPT OVERSEAS OFFICE

    Some years ago, on a trip to the Middle East, I had the 
opportunity to visit a Library of Congress facility in Cairo 
and was really blown away by the scope and the reach of a very 
small staff there. And it strikes me now more than ever that 
those efforts to collect information--pamphlets, propaganda, 
whatever it may be--that aren't published traditionally are 
more important to the United States now than ever.
    I, frankly, have not followed the progress of that work 
being done in and around the Middle East region, but I just 
would love to know whether the budget cuts that you've 
sustained over the course of years have affected that operation 
and what the plans and prospects are for that international 
effort, especially in that very volatile region, to collect 
information and publications that are not coming to you through 
other means, what the future of that looks like.
    Dr. Billington. Well, we've had to pay more to maintain 
these offices. They're more expensive. We've had to pay rent 
and different carrying costs to the State Department and 
others. It is extremely important that we maintain our overseas 
operations because they are the only means of acquiring and 
preserving a multitude of unique collection materials. If we're 
not going to be the repository, in effect, for the mandatory 
receipt of copyrighted materials for permanent retention as 
part of the national memory of American creativity, we will be 
in trouble. But we'll also be in trouble if we don't continue 
these overseas collections for the knowledge of the world.
    For instance, our Cairo office does remarkable things. All 
of these overseas offices travel widely. They have enormous 
knowledge of foreign languages, which is extremely important 
because more and more places are popping up with material that 
nobody else could decipher. We have somebody in our Cairo 
office, for instance, who speaks all three languages of the 
Kurds. Most people don't know that there's even one language of 
the Kurds. These are not dialects. These are separate 
languages. We have preserved the entire Coptic liturgical 
music, the oldest that relates to Christian history. The Copts 
are an important part of the Egyptian population. That's never 
been preserved before. It's now the official language of the 
Coptic Church.
    There is so much information that is in danger of not 
surviving, of not being part of the national memory. We're a 
part of the national memory and we're part of the world's 
knowledge. There's nothing equal to it. If we were to lose 
copyrighted knowledge or be dependent on some future 
arrangement that may not happen, you go back to the situation 
before 1870 when none of the copyrighted record was preserved.
    If our overseas offices don't function, we'll cease to be a 
place on the world's frontiers for preserving things that may 
be destroyed by extremists or terrorists or just fires that are 
never put out or water damage that's never repaired, which we 
are the best in the world at.

           SUSTAINING THE OLDEST FEDERAL CULTURAL INSTITUTION

    This is a unique, one-of-a-kind American institution that 
the Congress has created and sustained. It's the oldest Federal 
cultural institution, and it is I think capable of being one of 
the most innovative if its collections and staff are not 
diminished.
    We have a tremendous new leadership team. We've had a year-
long futures process that I have personally conducted with 
staff below this level. So from bottom-up and top-down, we 
offer you not something that we've created but something that 
Congress originated, created. But once it starts declining, 
once you miss 1 year, you double the problem in the following 
year, and the decline will be irreversible.
    I think we ought to hear a word from Robert Newlen who is 
my chief of staff, in conclusion so it's not just the old 
professor going on for 15 minutes.
    So, Robert Newlen and David Mao can just wrap things up 
very quickly for you and supplement my passion with a little 
more youthful vigor and energy.
    Mr. Newlen. Mr. Murphy, just to follow up on Dr. 
Billington's question about budget impact on our foreign 
office, one area of concern is the annual assessment that we 
have from the State Department for security for our facilities, 
many of which are located in American embassies. It's a very 
complex formula to determine our assessment. But this year I 
believe it ran in the neighborhood of over $2.5 million, and we 
anticipate that it will continue to grow in the future.
    But thank you for your comments about those offices. They 
are absolutely critical to our future acquisition policy. We 
are able to accumulate materials that we routinely use to 
service the Congress, so we continue to value them very much.
    Senator Murphy. I would just make a final note which I 
think, Dr. Billington, you're very right to note the fact that 
in many of these places you have regimes or entities, non-state 
actors, who are controlling large portions of territory that 
are in the business of destroying the historical record, 
destroying the cultural record. And when these communities and 
societies try to rebuild, if that record isn't preserved, and 
we are the only ones that have the resources to preserve it, it 
makes reconciliation much more difficult. So I appreciate the 
work of your overseas offices and I appreciate your comments. 
Thank you.
    Senator Capito. Thank you. I think this concludes our first 
panel of this hearing and I want to thank Dr. Billington, Mr. 
Mao, Mr. Newlen, and all the others who came forward to give 
their expertise on the Library of Congress, for your time 
today.
    The hearing record will remain open for seven days so that 
senators may submit any statements and/or questions for the 
record to the subcommittee by close of business Tuesday, March 
24, 2015.
    I would now like to ask Stephen Ayers, the Architect of the 
Capitol, to take a seat at the witness table for the second 
panel of the day.
    Thank you all.
    Are you ready, Mr. Ayers?
    I'd like to welcome the Honorable Stephen T. Ayers, the 
Architect of the Capitol, and the talented and dedicated 
members of his senior staff: Christine Merdon, who is the Chief 
Operating Officer; Tom Carroll, Chief Financial Officer; and 
Mamie Bittner, who has just joined the Architect's team this 
past December as the new Director of Communications and 
Congressional Relations.
    I understand that there are several superintendents of 
daily operations and maintenance of many of the buildings 
within the jurisdiction, that many of them are here today. So I 
want to thank you for your dedication and public service. I 
admire it every day. I feel honored and privileged to be 
working here in what is, I always say, the largest symbol of 
our freedom, the United States Capitol and associated 
buildings. It's a magnificent place, and we want to keep it 
that way, as you do too.
    So briefly, the budget is an increase of $61.5, or about 10 
percent, and I realize that there is a deferred maintenance 
backlog of about $1.4 billion, and you've had some very tough 
decisions that you've had to make. But it is an increase of 10 
percent, and if you heard me with Dr. Billington, I basically 
posited that it's highly probable that we'll be faced with a 
flat budget for 2016 and be unable to make some tough decisions 
ahead of us.
    I noticed the theme of exterior envelope repair needs in 
this building or your request, including significant roof and 
stone deterioration on several buildings. I thank you for the 
tour so we could see up close and personal, particularly in the 
Russell Building, Hart, and the Capitol itself.
    One of the questions I'm going to be asking later is how do 
we prevent that from accumulating to such great degrees in the 
future? Do we need more maintenance, more cleaning, different 
materials? We can get into that later.
    So now, for an opening statement, I'd like to turn to my 
ranking member, Senator Schatz, for any opening comments he may 
make.
    Senator Schatz. Thank you, Chair Capito. I'm ready to hear 
from Mr. Ayers.
    Senator Capito. Mr. Ayers, I'd like to ask you to give a 
brief opening statement of approximately 5 minutes. The written 
testimony you submitted will be printed in full as part of the 
hearing record.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF HON. STEPHEN T. AYERS, ARCHITECT OF THE 
            CAPITOL
ACCOMPANIED BY:
        CHRISTINE MERDON, CHIEF OPERATING OFFICER
        TOM CARROLL, CHIEF FINANCIAL OFFICER
        MAMIE BITTNER, DIRECTOR OF COMMUNICATIONS AND CONGRESSIONAL 
            RELATIONS
    Mr. Ayers. Thank you and good afternoon, Chairman Capito, 
Senator Schatz and members of the subcommittee. I'm delighted 
to be with you today, and thank you for the opportunity to 
testify.
    I'm pleased to present the Architect of the Capitol's (AOC) 
fiscal year 2016 budget. Our incredibly talented team of 
professionals has worked diligently to prioritize the 
challenges we face as our magnificent Capitol campus continues 
to age.
    Thanks to the outstanding support from you, we're hard at 
work at delivering our common mission of stewardship for the 
buildings and grounds of Capitol Hill. The start of the Dome 
Restoration Project in the fall of 2014 is a prime example of 
how we have worked together to reinvest the necessary resources 
on a project that will protect America's inspiring Capitol. I'm 
pleased to report today that we're nearly halfway through the 
exterior Dome restoration work. We currently anticipate 
completion of the exterior restoration this time next year.
    However, beyond the Capitol Dome, enormous challenges 
remain. From falling stone to aging infrastructure, coupled 
with safety and operational issues, the problems of Capitol 
Hill are continuing to get worse over time. This year's budget 
request addresses several critical projects across the Capitol 
campus, and I would like to highlight a few of them now for 
you.
    First, we continue to address the systemic problem of stone 
deterioration across the campus. To this end, we are seeking 
support for the third phase of the five-phase Russell Senate 
Office Building Exterior Envelope Repair and Restoration 
project. This will make repairs to the west facade of the 105-
year-old office building. Rehabilitating the Russell Building 
exterior will significantly reduce the risk of falling stone 
and will result in increased energy savings with the 
maintenance of the doors and windows.
    Another project that I think is critical to our success is 
the next phase of the West Refrigeration Plant Chiller System 
Replacement at the Capitol Power Plant. This project will 
replace two old, inefficient chillers and chilled water pumps 
that date back to the 1970s, with a new chiller and other 
essential equipment.
    The Capitol Power Plant plays an essential role in the 
Architect of the Capitol's (AOC) long-term energy conservation 
and cost reduction efforts. The existing chillers were 
installed in the 1970s and are far beyond their useful life 
expectancy.
    Lastly, we are seeking your support to fund the first of 
three phases of the Senate Underground Garage Restoration and 
Landscape Restoration project. Constructed in 1932, the Senate 
Underground Garage, plazas and fountains continue to 
deteriorate and are in need of renovation and restoration. The 
project will also improve the Senate fountain's water 
efficiency and save future maintenance costs.
    These projects, among others highlighted in our budget 
request, are indicative of the critical nature of the work 
necessary to maintain the Capitol campus. Every day when I walk 
around Capitol Hill I'm reminded that the AOC's work directly 
affects members of Congress, your staff and visitors, and 
allows you to conduct the important work of government. Rest 
assured that the proud men and women of the AOC are your 
partners and we will continue to work around the clock and 
dedicate ourselves to our mission, no matter the challenges 
that lie ahead. Thank you.
    [The statement follows:]
              Prepared Statement of Hon. Stephen T. Ayers
    Chairman Capito, Senator Schatz, and members of the subcommittee, 
thank you for the opportunity to testify today regarding the Architect 
of the Capitol's (AOC) fiscal year 2016 budget request.
    With the support of Congress, the AOC is a strong steward of the 
buildings and grounds that comprise Capitol Hill. The incredibly 
talented and skillful employees of the agency care for facilities that 
are decades and even centuries old--buildings that were constructed 
without the modern equipment and efficiencies we now take for granted.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


     Safety canopy over the Rotunda in support of the Capitol Dome 
                              Restoration.

    In service to the U.S. Senate, the AOC achieved a number of major 
accomplishments in the past year. This work included moving 15 
committee offices and 7 Senator's offices as required by the majority 
transition. We also began work on the Hart Senate Office Building roof 
and skylights replacement, including an ongoing structural analysis of 
the Calder Clouds Mobile. We made critical life-safety systems upgrades 
to the historic Russell Senate Office Building Rotunda that also 
preserves its ornate features.
    Recognizing that AOC employees are among our most important assets, 
we continue to make investments to empower them. In 2014, we held more 
than 30 town halls, sharing critical information and soliciting 
feedback from our staff. In addition, we conducted an organizational 
assessment survey and are pleased that more than 80 percent of AOC 
employees participated. Based on this feedback, AOC was ranked 8th out 
of 25 mid-sized Federal agencies by the Partnership for Public 
Service's Best Places to Work in the Federal Government rankings.
    AOC is also working to strengthen our supervisors. We have launched 
a ``Supervisory Academy,'' a week of intense supervision, management 
and leadership theory and skills development to help our supervisors 
become extraordinary leaders. Beyond our supervisors, we have launched 
two programs to encourage our staff to further improve their abilities. 
This includes the Architect's Mobility Program that allows employees 
who lack qualifying experience to move into positions where they can 
gain a specialized skill set, enabling them to progress according to 
their abilities. And our Exchange of Critical Expertise and Learning 
(ExCEL) program serves to improve organizational productivity, enhance 
strategic efficiencies and increase employee knowledge.
    As strong as our employees are, our buildings are in need of 
additional help. Materials like stone, cast iron and bronze are key 
elements that provide the character and charm that thousands of Members 
of Congress, their staff and visitors have enjoyed throughout our 
Nation's history. Yet even these robust materials degrade over time. 
The maintenance needs of the Capitol campus continue to grow every 
year, allowing small problems to become major life-safety and 
infrastructure problems requiring significant investments and resources 
to remedy.
    Taking into account the emerging priorities and looming urgent 
repairs for fiscal year 2016, we are requesting $661.8 million--a 
decrease of 2.2 percent from our fiscal year 2015 budget request.
    To address capital projects categorized as urgent or immediate, we 
are requesting $144.5 million. This is a $12 million or 7.7 percent 
decrease from our fiscal year 2015 request, leaving $182.9 million of 
deferred maintenance work to be requested in future fiscal years. We 
recognize that not every project can be funded at the same time, and 
the deferred work will continue to be added to future funding requests. 
While we work to mitigate the risk of major failure by carefully 
monitoring and maintaining the facilities and systems, we know that 
delaying critical projects will inevitably result in increased fiscal 
demands on future budgets.
    Ongoing budget constraints mean we must carefully weigh competing 
demands and use our expertise to recommend investments in the most 
critical projects. Our Project Prioritization Process ranks every 
project based on its importance and urgency so that we can effectively 
recommend to Congress the investments most needed to ensure the Capitol 
campus remains safe, functional and protected for all who work and 
visit the buildings and grounds.
              aging buildings require critical investment
    Viewed from a distance, the buildings of Capitol Hill are inspiring 
and impressive, but up close, the buildings are more distressing than 
impressive, as weather, age and deferred maintenance are destroying 
many of the finer details of these awe-inspiring stone edifices.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


  Deteriorating stone on the Russell Senate Office Building exterior.

    When stone is properly maintained, it is one of the world's most 
enduring materials; but when exterior stone deteriorates, major 
problems such as water infiltration, rusting of steel structures, mold 
and energy loss can occur within the building.
    While our dedicated employees perform the work necessary to 
maintain our buildings and grounds, they can only ensure the integrity 
of the materials when they are given adequate resources and support. 
Years of austere budgets have already resulted in the loss of many 
irreplaceable heritage assets.
    Stone preservation continues to emerge as one of our most important 
priorities. The condition of the exterior stone on most, if not all, of 
the buildings on Capitol Hill is rapidly deteriorating. The AOC's 
historic preservationists, structural engineers and stonemasons are in 
a race against time as the infrastructure ages and deferred maintenance 
projects accumulate.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


       AOC stonemason makes repairs to the Olmsted Terrace Walls.

    Stonemasons from our Construction Division have been hard at work 
making repairs to the Olmsted Terrace--the first in more than a 
century. Designed by Frederick Law Olmsted in 1874, considered the 
founder of American landscape architecture, the terrace walls provide a 
strong visible base to the Capitol and a heightened sense of grandeur 
and scale. Unfortunately, the terrace conditions have deteriorated over 
time. But through the expertise of our Historic Preservation Officer 
and our stonemasons--funded from Capitol Construction and Operations--
we are able to make the critical repairs needed to save these assets 
and restore the Olmsted Terrace to its former splendor.
    The longer these stone buildings are left to the destructive 
effects of time and the elements, the more the problems compound. 
Instances of cracking and spalling stone grow more serious and more 
costly to repair every year, and the temporary fixes the AOC undertakes 
to prevent catastrophic failures are not enough to prevent conditions 
from worsening. Investing in stonework projects will pay long-term 
dividends and preserve these historic buildings for decades to come.
    At the U.S. Capitol Building, an investment in the rehabilitation 
of the exterior stone will prolong the building's life expectancy and 
preserve its historic features. The U.S. Capitol South Extension 
Exterior Stone and Metal Preservation work will include mortar 
replacement, fabrication and installation of Dutchman repairs, and 
stone cleaning. This work will help stem the water infiltration that 
has been destroying the existing historic fabric of the building.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


              Spalling stone on the U.S. Capitol Building.

    The third phase of the five-phase Russell Senate Office Building 
Exterior Envelope Repair and Restoration project will address the west 
facade of the 105-year-old office building. The work will repair the 
facade, windows and doors; repoint the masonry; restore and refinish 
the exterior metals and make structural repairs to the balustrades. 
Rehabilitating the Russell Building exterior will significantly reduce 
the risk of falling stone and will result in increased energy savings 
with the maintenance of the doors and windows.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    Stone sugaring on the Russell Senate Office Building balustrade.

    The Summerhouse, a favorite Capitol Grounds respite during the hot 
summer months, is rapidly deteriorating and requires intervention to 
restore the structure to its former grand condition. In particular, the 
terra cotta roof and bricks are crumbling, leading to an increase in 
life-safety issues, and the center fountain and grotto lack a 
recirculating water system, which is an inefficient use of resources. 
If the Summerhouse Restoration project is completed, it will ensure 
that this Capitol Grounds treasure is preserved for generations.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


        Olmsted's Summerhouse is an American historic treasure.

    In future fiscal years, stone preservation will continue to be the 
AOC's main focus, as nearly every building on Capitol Hill is built 
from stone and nearly all are in need of repair. Scaffolding already 
surrounds parts of the U.S. Capitol Building and will soon be visible 
around the Russell Senate Office Building and Cannon House Office 
Building as well. These critical stone restoration efforts will ensure 
that the work of Congress can continue for decades to come.
                           critical projects
    In our fiscal year 2016 budget request, we are requesting funding 
for projects that will ensure necessary investments are made in our 
historic infrastructure and increase the safety and security of those 
who work or visit Capitol Hill. Providing superior service to our 
customers and executing numerous large-scale and highly visible multi-
year construction projects is a formidable challenge that we are 
addressing by managing risk and transparently communicating with 
Congress and the American public.
    AOC is responsible for meeting a wide range of fire, life safety, 
accessibility and performance standards, while also balancing 
operational needs and challenging working conditions that are unique to 
Capitol Hill and our aging buildings. In particular, we are focused on 
energy efficiency, addressing safety deficiencies and repairing crucial 
building infrastructure.
    The Capitol Power Plant (CPP) will continue to play an essential 
role in the AOC's long-term energy conservation and cost reduction 
efforts. The CPP's existing chillers, located in the West Refrigeration 
Plant (WRP), were installed in the 1970s and are rapidly approaching 
the end of their useful life expectancy. The risk of chiller failure 
increases as we continue to rely on this equipment to provide 
environmental control to the buildings on Capitol Hill. The next phase 
of the WRP Chiller System Replacement will replace two old, inefficient 
chillers and primary chilled water pumps with a new chiller, in 
addition to making other essential upgrades and repairs. The chiller 
replacement will reduce the Capitol Power Plant's energy consumption, 
increasing efficiency and simultaneously providing a significant 
electrical cost savings.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


            Chiller reaching the end of its life expectancy.

    To mitigate Office of Compliance citations across the Capitol 
campus, we are requesting funding for the second phase of the Library 
of Congress Thomas Jefferson Building North Exit Stair B, which will 
address important egress deficiencies in the building. The AOC will 
construct a new self-supporting masonry exit stair in the northeast 
stacks that extends from the cellar to the top floor of the building, 
in addition to constructing new fire-rated exit passageways. The 
project will ensure that occupants of the Jefferson Building will be 
able to efficiently and rapidly exit the building during an emergency 
evacuation.
    Constructed in 1932, the Senate Underground Garage, plazas and 
fountains continue to deteriorate and are in need of renovation and 
restoration. Our request to fully fund the first of three phases of the 
Senate Underground Garage Renovations and Landscape Restoration will 
waterproof the upper and middle plaza fountains and surrounding 
stonework, restore the walkways and waterproof part of the garage ramp. 
The project will improve both of the fountain's water efficiency and 
save future maintenance costs for stonework repair.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                Deteriorated Senate Underground Garage.

    The longer these projects are delayed, the more the conditions of 
the buildings will decline. Proper investment is needed to ensure the 
historic fabric of these buildings is not lost to the ravages of time.
                               conclusion
    Chairman Capito, Senator Schatz and members of the subcommittee, 
funding our recommended capital projects in fiscal year 2016 ensures 
that necessary investments are made in our aged infrastructure, and 
maintains the unique and historic buildings that serve Congress and the 
American people.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    We appreciate the previous investments, support and trust Congress 
has placed in us to address critical construction projects across the 
Capitol campus. The investments made in the AOC have enabled us to 
preserve history and ensure Congress can accomplish its daily 
functions.
    The buildings of the Capitol campus are well cared for by the 
dedicated men and women of the AOC who use their incredible talents and 
skills to maintain the buildings and grounds. Day after day, our 
employees deliver inspiring and professional service to our customers. 
Each employee's contribution is vital to our success as an 
organization.
    There is much work to be done, but we believe that there is no 
greater mission than upholding the historic buildings entrusted to our 
care. The American people and future generations are counting on us to 
work together to invest the necessary resources to sustain the 
treasures of Capitol Hill.

                 ARCHITECT OF THE CAPITOL POSTER BOARDS
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                     U.S. CAPITOL DOME RESTORATION

    Senator Capito. I want to thank you, and I'll go right to 
questioning.
    The Dome, obviously, is the most prominent demonstration of 
the work of the Architect of the Capitol, the rehabilitation 
work which you toured for us, probably on the coldest day of 
the year. Thank you very much for that.
    I understand you mentioned that it is on budget and on 
schedule. I'd just like a reaffirmation of that because 
obviously I have concern about the inauguration of 2016. Do you 
have full confidence that you'll have this completed in time 
for that?
    Mr. Ayers. Yes, I do. This is a three-phase project. We're 
executing the exterior now, and we expect that to be finished 
this time next year. So that's well in advance of the 2017 
presidential inauguration. And the final two phases, the 
interstitial space and the Rotunda space, are both awarded, and 
work and planning is well under way. We're pretty confident 
that we'll make that date.

                     PROJECT PRIORITIZATION PROCESS

    Senator Capito. Good, that's good news.
    On your request, you have line-item construction projects 
in priority order. I noticed that you mentioned Phase 3 of the 
Russell Building exterior envelope. We also looked at that as 
well and concur that it's in need of restoration and repair.
    But as we're looking through the budget, if we flat fund 
you, we're not even going to get to that project. Do you 
anticipate that you will be reconfiguring some of your top 
projects or phases? The $29 million for the West Refrigeration 
Plant, is that the final phase of that project?
    Mr. Ayers. It is not the final phase. I think the total 
expenditure on that program is about $180 million.
    Senator Capito. Wow.
    Mr. Ayers. We've already broken it down into about six 
phases. I think there's potential that we can certainly work 
with the subcommittee to move those projects up and down the 
priority list as funding is available, and we're well poised to 
work with the subcommittee to do that.
    It's interesting, as I look through that list, nearly all 
of them are immediate priorities. The difference in priorities 
is rather small between them, and moving one above the other 
will have fairly low consequences. We would welcome the 
opportunity to do that.

                          STONE DETERIORATION

    Senator Capito. What about the question I asked in my 
opening statement in terms of the large projects, and you 
mentioned in your opening statement the deterioration of the 
Capitol Plant in and of itself. Do you have a side part of your 
vast responsibilities where you're looking at ways to do better 
maintenance or prevent the grand deterioration? When we looked 
out at the park over by the Russell Building, I think it was 
mentioned that these stones had been moving for decades, and I 
know you tried to address them, but couldn't address them.
    What do you say about that? Because certainly that would 
help with cost issues.
    Mr. Ayers. First let me show you an image or two of the 
stone restoration.
    Senator Capito. Okay.
    Mr. Ayers. I think you have some photographs at the dais, 
and let me just refer you to images 1, 2, 3 and 4. Image 1 is a 
great example of stone deterioration. This comes from water, 
and you can see the base of the wall that has pulled away from 
its structural system, and the severe deterioration at the 
bottom.
    Similarly, if you look at photographs 1, 2, 3 and 4, you'll 
see very similar deterioration there.
    To answer your question, the work that we do and our 
maintenance is not out of the ordinary. I think it's in line 
with industry best practices.
    What's different is we are managing historic buildings that 
are 100 to well over 200 years old, and we are dealing with the 
materials and methods of construction from that time. Keeping 
those buildings maintained is the issue that causes us the most 
difficulty.
    Take stone, for example. We are using the latest 
technology. Thirty or forty years ago, cleaning stone would 
have been done with high-pressure power washers or sand 
blasting, and today we're doing that with water misting and the 
newest technology of hand-held laser cleaning of stone that is 
making incredible efficiencies in our projects, and costs as 
well.
    We are abreast of the latest technologies and are using 
those in the work that we do today.

              UNION SQUARE AND GRANT MEMORIAL CONSERVATION

    Senator Capito. My last question will be about the Union 
Square and Grant Memorial conservation. My understanding was 
that in the 2012 budget you took over the responsibilities for 
Union Square and the Grant Memorial conservation without really 
any additional funding provided to you.
    It is a beautiful area as you're walking down from the 
Capitol, a lot of visitors walk through there. I understand 
you're going to be refurbishing the Grant Statue and all of the 
walkways and the pumping system for the Reflecting Pool there.
    How are you putting this into your budget, and what do you 
see for that area of the Capitol?
    Mr. Ayers. What an important space that is for this grand 
city of Washington, DC, and what an important memorial to Grant 
this is. It is in a significant state of disrepair, and we were 
delighted that the Congress acquired that property, and we are 
working hard to be good stewards.
    I have another image or two, if I may, of that. If you can 
look at image 5 and 6, a great example is image 6. This is the 
current state of that statue. You can see the military officer 
here with his hand raised in victory with his sword, only that 
the sword is missing, and this is just one of probably 100 
pieces of the statue that have been removed and deteriorated.
    Similarly, you see the deteriorating condition of the 
bronze statue and the staining of the marble of this stone, and 
we're eager to undertake that work and get it looking the way 
it should be looking.
    The first thing that we've done at Union Square is to 
stabilize it and make it safe by removing the tripping hazards 
and making sure people can safely traverse through Union 
Square. We have expended about $1 million doing that work.
    Secondly, we've spent or will spend about $1 million in the 
short term conserving the bronze, conserving the marble, and 
getting this piece of important statuary collection back to the 
way it should be.
    Thirdly, we have undertaken a series of studies to help us 
understand the cultural importance of this piece of property 
and what needs to be done long term to the infrastructure. When 
we acquired the property, the pumping room was completely 
submerged in nearly 10 feet of water and had been that way for 
a very, very long time. We've now drained it and are beginning 
to understand what needs to happen to get this Reflecting Pool 
functioning the way it needs to function.
    Senator Capito. Senator Schatz.
    Senator Schatz. Senator Murphy.
    Senator Capito. Senator Murphy.
    Senator Murphy. I'm going to leap over Senator Schatz. I 
just have one quick question, so I appreciate Senator Schatz 
allowing me to ask it.

                    HART ATRIUM AND CALDER SCULPTURE

    Thank you for the work that's going on right now in the 
Hart Atrium regarding a structural assessment of the Calder 
Statue. Calder is a Connecticut-based sculptor, someone that 
we're very proud to be associated with. Of course, that statue 
has not been operating according to Calder's wishes for some 
time. I know that this is going to be a lengthy analysis 
because you're looking at whether there is the structural 
ability to re-mechanize the clouds portion of the statue while 
also just trying to understand whether it's financially 
feasible as well. I was able to take a quick tour of the work, 
and I think there's great progress being made. But I'd love an 
update on that analysis as it stands today.
    Mr. Ayers. Thank you, Senator. We are certainly concerned 
about that. The roof of the Hart Building and the skylights 
were leaking significantly, and we came to the Congress seeking 
money to replace the roof and replace a significant number of 
skylights. As part of that project, we had to scaffold the 
Atrium. It presented a wonderful opportunity to analyze the 
Calder sculpture and understand why the clouds haven't been 
rotating since 1992, I think it was. We're in the process of 
doing that analysis.
    You may have seen a notice we've sent out to member offices 
just within the last few days that we're about to undertake the 
x-ray portion of that analysis. We will be looking very 
carefully at all of the welded joints in the clouds themselves 
and the connecting devices of the clouds to see if there are 
cracks and understand the depth of the welds. That process will 
happen over a number of weekends over the course of the next 
several weeks.
    We expect to have that report this summer and come back to 
the Congress with our recommendation on how we should proceed 
with getting it repaired and whether or not it can continue to 
spin and function as it was originally intended to.
    Senator Murphy. Well, we have about three feet of snow on 
the ground in Connecticut, so we've seen a lot of clouds over 
the course of the last few months. It's nice to see occasional 
cloudless skies, but we're hopeful to have that structure back 
up and operating as it was originally intended to.
    Thank you, Senator Schatz, for allowing me to jump in.
    Senator Capito. Senator Schatz.

                           CONTRACT OVERSIGHT

    Senator Schatz. Thank you, Chair Capito.
    I have a few questions, Mr. Ayers.
    I know the Architect relies on contractors for a number of 
your major construction contracts, and I think that makes 
sense, especially when you lack the specialized expertise. I'm 
interested in how you do your contract oversight, and I'm 
particularly focused in on whether you're following GAO's best 
practices for contract oversight.
    Mr. Ayers. To answer the second question first, we believe 
that we are. We had a recent GAO audit of our cost estimating 
and risk assessment practices within the last year, and we are 
following those practices and have done five cost and risk 
assessments on our major capital projects, and all of them seem 
to be in line with our expectations. We are achieving an 80 
percent confidence rate, both in cost and schedule, and in many 
of our projects we are exceeding that 80 percent confidence 
rate in both cost and schedule. So we think we're following the 
best practices.
    Secondly, we take a very comprehensive approach to contract 
management. We treat our contractors as our partners. Our 
success and the success of the Congress in these endeavors are 
related to the success of our contractors. We partner with them 
and perform rigorous oversight of our contractors. We are 
engaged with them at so many different levels, starting with a 
contracting officer and a contracting officer's technical 
representative, a project executive, a project manager, a 
project inspector, a construction manager, and on down the 
line.
    A great example of that is we recently had about 15 of our 
construction managers certified as certified construction 
managers through the Construction Management Association of 
America. So making sure the folks that are on the ground 
working with contractors are the best they can be is important 
to us, and we're investing in that.
    Senator Schatz. Are you adhering to your existing internal 
policies and standards? Is this an improvement that you've made 
over the last couple of years?
    Mr. Ayers. It's only been in recent years that we've 
actually captured our project management practices in a written 
manual. All of those procedures, just within the last 5 years, 
have been written and codified both in a manual and guidance 
and policy that I've signed and directed all of the members of 
our organization to follow these procedures as we perform 
contractor oversight.

                       PROJECT SCHEDULE AND COST

    Senator Schatz. Speaking of contract management, Chair 
Capito asked about the Capitol Dome restoration being finished 
before inauguration, made reference to the Grant Statue in 
Union Square, and also the exterior stone work I believe. Can 
you just confirm for the subcommittee that all of those 
projects and any other projects will be completed before the 
inauguration?
    Mr. Ayers. I'd be happy to, and I can confirm that. Every 
member of this organization understands how important the 
presidential inauguration is and knows that we are front and 
center on every television screen across the world on that day.
    Senator Schatz. And who bears the cost if something 
unforeseen happens? Let's say you had to take down scaffolding 
to conduct the inauguration and then re-start one of those 
projects. Would it depend on the reason for the delay and the 
way the contract is written, or is there some way this goes 
every time?
    Mr. Ayers. I think all of those things are situationally 
dependent. If it's some force majeure, then we have to pay for 
that. If it's delayed because of the contractor's fault, then 
we would insist that the contractor pay for that.
    The scaffolding and everything else is going to come down 
by the time the presidential inauguration happens, and we will 
ensure that the West Front and the East Front of the Capitol 
look terrific.

                               FORT MEADE

    Senator Schatz. Thank you. And my final question on the 
Fort Meade acquisition, my understanding is that there is 100 
acres, the total number of acres, and then there's seven acres 
or so that were part of an old railroad owned by the State of 
Maryland. Have you made your arrangement with the State of 
Maryland, gotten your easements, and is there any thought given 
to not acquiring that last seven acres because of the potential 
environmental mitigation that may be required and the cost 
associated with it?
    Mr. Ayers. We did submit legislative language in our budget 
request, and the purpose of that is to allow us to begin 
negotiating with the State of Maryland to acquire that piece of 
property. I think all of that will be determined in the 
negotiations.
    Today, what's in front of us is the construction of Fort 
Meade Module 5, and we have negotiated and signed a Right of 
Entry with the State of Maryland allowing us to proceed with 
construction of Module 5.
    Senator Schatz. Module 5 is not on those seven acres. You 
just need an easement through the seven acres to do the 
construction?
    Mr. Ayers. Correct. We have to run utilities through the 
easement to feed Module 5.
    Senator Schatz. Okay. I would just ask you to stay nimble 
on this one because we're obviously nowhere near having built 
out all 93 acres, which are by all accounts free and clear. So 
it would be great to acquire those last seven acres. But if it 
proves to be difficult, as sometimes is the case with parcels 
of property that may have environmental requirements, I think 
we should all be prepared to just work with the first 93 acres 
and not get into a long and potentially expensive process, 
especially if it's not necessary. So let's all stay nimble on 
this.
    I don't have a dog in that hunt, except that I don't want 
to see you wasting your time, and I certainly don't want to see 
us using taxpayer dollars to have to do environmental 
mitigation on land that we went out of our way to acquire.
    Mr. Ayers. I understand, and we certainly will. Thank you.
    Senator Schatz. Thank you.
    Senator Capito. Any further questions?
    Senator Schatz. No. Thank you.
    Senator Capito. Thank you, Mr. Ayers. I have no further 
questions.
    I want to thank the staff, too, of the Architect's Office 
for your time here today.

                     ADDITIONAL COMMITTEE QUESTIONS

    The hearing record will remain open for seven days, 
allowing members to submit statements and/or questions for the 
record, which will be sent to the subcommittee by close of 
business on Tuesday, March 24th, 2015.
    [The following questions were not asked at the hearing, but 
were submitted to the Agency for response subsequent to the 
hearing:]
             Questions Submitted to Dr. James H. Billington
              Questions Submitted by Senator Brian Schatz
                    building the digital collection
    Question. What is your long term vision on building the digital 
collection?
    Answer. The vision for digital collections at the Library of 
Congress is anchored in the Library's mission to support the Congress 
in fulfilling its constitutional duties and to further the progress of 
knowledge and creativity for the benefit of the American people. It is 
also part of the larger vision that covers both analog and digital 
collections. The Library strives toward:
  --A universal collection of knowledge, unmatched in the world, analog 
        and digital;
  --Routine and easy acquisition of analog and digital materials by 
        deposit, purchase, gift, and exchange, in pursuit of serving 
        our patrons in the present and preserving a national patrimony 
        for the future;
  --Collections moving quickly to the hands and screens of on-site 
        scholars and users of the public Web site;
  --Serving patrons and the public with the tools and skills needed to 
        access and analyze digital collections;
  --A digital and analog collection that is universal, well organized, 
        and easy to use, enabling authoritative research and analysis 
        for Congress; and,
  --The Library of Congress continuing as a center of excellence in the 
        practices of acquiring, describing, managing, preserving, and 
        providing cultural heritage material and as a world leader in 
        the handling of digital material.
    Question. How is that reflected in your budget?
    Answer. The Library has requested fiscal year 2016 funding of 
$2.005 million (15 full-time equivalents (FTE)) to establish a Digital 
Collections Center, which will provide an essential increase in the 
institution's capacity to ingest, process, manage, preserve, and 
provide access to digital material. As a centralized team, this 
operation will collaborate with technical staff elsewhere in the 
Library. It also will assist other staff members who work with digital 
collections, increase standardization of the work, engage underserved 
curatorial divisions, and provide training across the Library.
    Question. Who makes the judgments and what judgments are to be made 
about either what comes in digitally and then gets archived or what 
comes in in analog form and then gets digitized?
    Answer. In general, subject specialists make such judgments under a 
framework of existing policies. The Library has a set of more than 70 
Collections Policy Statements and Supplementary Guidelines documents 
(see http://www.loc.gov/acq/devpol/cpsstate.html) that guide the 
institution's acquisitions and selection operations for both analog and 
born digital materials. The policies provide a plan for developing the 
collections and maintaining their existing strengths. They set forth 
the scope, level of collecting intensity, and goals sought by the 
Library to fulfill its service mission. Proposals to digitize analog 
materials are prepared by specialists and submitted to the Digital 
Library Content Group (DLCG), a committee with Library-wide 
representation. Proposals are evaluated by the DLCG using these 
criteria:
  --Value to Congress
  --Scholarly research value
  --General audience interest
  --Educational value
  --Historical or cultural significance
  --Extent to which it fills in major gaps in subjects covered
  --Extent to which it augments/complements existing collections 
        presented on the Library's Web site
  --Extent to which it represents ``star'' materials in LC collections 
        (top treasures, extraordinary items)
  --Extent to which it reduces wear and tear on fragile and/or valuable 
        physical materials
  --Potential to engage new audiences
  --Relationship to a planned event
  --Relationship to a planned exhibit
  --Extent to which it provides an opportunity to collaborate with 
        outside communities
    Question. Is there a growing field of specialized expertise in the 
curating of digital materials?
    Answer. Yes, specialized expertise is required on the technical 
side. The Library already has limited resident expertise in digital 
curation. The establishment of the Digital Collections Center will 
allow for an expansion of that expertise base in the Library and result 
in the ability to greatly expand our digital collecting program.
    Question. Are you all set to bring on this expertise, and now you 
just have to fund it and execute?
    Answer. The Library is prepared to expeditiously establish and 
staff the Digital Collections Center.

                         CONCLUSION OF HEARINGS

    This concludes the Legislative Branch Appropriations 
Subcommittee hearings regarding the budget request for fiscal 
year 2016.
    The subcommittee stands adjourned.
    [Whereupon, at 4:20 p.m., Tuesday, March 17, the hearings 
were concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]
</pre></body></html>
